<html>
<title> - [H.A.S.C. No. 111-112]AFGHANISTAN: THE RESULTS OF THE STRATEGIC REVIEW, PART II</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-112]
 
       AFGHANISTAN: THE RESULTS OF THE STRATEGIC REVIEW, PART II

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 8, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES




                  U.S. GOVERNMENT PRINTING OFFICE
57-832                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, December 8, 2009, Afghanistan: The Results of the 
  Strategic Review, Part II......................................     1

Appendix:

Tuesday, December 8, 2009........................................    55
                              ----------                              

                       TUESDAY, DECEMBER 8, 2009
       AFGHANISTAN: THE RESULTS OF THE STRATEGIC REVIEW, PART II
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Eikenberry, Ambassador Karl W., U.S. Ambassador to Afghanistan...     8
McChrystal, Gen. Stanley A., USA, Commander, International 
  Security Assistance Force (ISAF), and Commmander, U.S. Forces-
  Afghanistan (USFOR-A)..........................................     5

                                APPENDIX

Prepared Statements:

    Eikenberry, Ambassador Karl W................................    68
    McChrystal, Gen. Stanley A...................................    61
    Skelton, Hon. Ike............................................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Heinrich.................................................    88
    Mr. Langevin.................................................    87
    Mrs. McMorris Rodgers........................................    87

       AFGHANISTAN: THE RESULTS OF THE STRATEGIC REVIEW, PART II

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, December 8, 2009.
    The committee met, pursuant to call, at 9:30 a.m., in room 
HVC-210, Capitol Visitor Center, Hon. Ike Skelton (chairman of 
the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order. I ask the 
gentlemen of the press to be as inconspicuous as possible and 
not interfere with the witnesses today.
    The hearing will come to order. I want to first say that no 
demonstration will be tolerated. Anyone disturbing by signs or 
any other disturbance will be removed forthwith.
    So today I welcome on behalf of the Armed Services 
Committee, our second hearing on Afghanistan, ``The Results of 
Strategic Review.'' The witnesses today, General Stanley 
McChrystal, Commander, International Security Assistant Force 
(ISAF) in the United States Forces Afghanistan, and the 
Honorable Karl Eikenberry, the United States Ambassador to 
Afghanistan. We welcome you and we thank you for being with us, 
as we have been long anticipating your testimony today.
    Two months ago I wrote a lengthy letter to the President, 
some six pages, that he listen to his commanders in the field. 
Let me begin by commending the President for demonstrating his 
commitment to achieving success in Afghanistan by adding 30,000 
American troops to the war. In that letter and in private 
conversations, I urged the President to listen to our military 
leaders and give them what they needed, and he did just that.
    I have noted that the war in Iraq caused the previous 
Administration to lose focus on Afghanistan. Shortly after 
deposing the Taliban regime and forcing Al Qaeda out of 
Afghanistan, the preoccupation with Iraq caused the war in 
Afghanistan to be underresourced with essentially no strategy.
    Unsurprisingly, the Taliban and their Al Qaeda allies were 
able to come back and once again threaten the stability of 
Afghanistan and the region and, ultimately, our country.
    The President in his speech last week conveyed his 
commitment to addressing the threat. Opposed by Al Qaeda and 
their Taliban allies in January 2009, there were about 33,000 
United States troops in Afghanistan. Now, in about seven 
months, there will be three times that.
    Yesterday in my office Ambassador Eikenberry informed me 
that we will soon also have triple the number of civilian 
experts assigned to the mission, and we welcome that.
    Many of the press have compared the increase in force in 
Afghanistan to the surge in Iraq. I don't think such 
comparisons are wise or fair. As a percentage of the forces on 
the ground, the increase ordered by President Obama is much 
larger than the increase in Iraq. And the fight in Afghanistan 
will be different in many ways.
    Media articles citing General Petraeus yesterday suggest 
that he does not believe that progress in Afghanistan will not 
come as quickly as it did in Iraq. In the article he suggested 
that we must be measured in our expectations. To me this 
article highlights the need for a commitment to accomplishing 
this mission, not just from the President, but from the 
Congress and the American people. I hope that this hearing can 
help build that sense of support and that sense of commitment.
    Yesterday you, General McChrystal, and you, Ambassador 
Eikenberry, sat in my office and told me that you believe you 
can successfully complete the mission in Afghanistan. I believe 
that you are right: that the President's new strategy, coupled 
with the increase in troops and civilian experts, and the sense 
of urgency provided by the July 2011 target for transition, 
presents our best chance for success.
    Every member of this committee will have questions about 
the strategy and how it can be accomplished. From our part, I 
have numerous questions: What does success in Afghanistan look 
like? What do you believe must be accomplished in the next 18 
months? What risks are we accepting in the next 18 months and 
how can we mitigate them? How will we convince the Pakistanis 
that their interests lie with us? How will we measure progress 
over time, and how will we help the Afghan people build the 
sort of legitimate government that can end the insurgency.
    While I do have questions about implementation, I do not 
have any doubt that we must succeed in Afghanistan; that the 
President is right to order the deployment of an additional 
30,000 troops on top of the troops already approved; and that 
the new strategy provides a good path for success.
    I hope our witnesses today can help us fill in the details 
of how the difficult but achievable goals of this strategy can 
be accomplished. Ultimately we are working to protect the 
American people and end the threat from Al Qaeda.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 59.]
    The Chairman. Now I turn to my good friend Buck McKeon, the 
Ranking Member, the gentleman from California, for comments he 
may have.
    Let me, Buck, one administrative note before our witnesses 
begin their statements. Members are reminded that there is a 
classified briefing with Admiral LeFever, the Commander, Office 
of the Defense Representative to Pakistan (CODR) HVC-301 at 
3:00 p.m. today. Given the importance of Pakistan, I hope 
members will schedule themselves to attend there.
    And with that, Buck McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    General McChrystal, Ambassador Eikenberry, welcome and 
thank you for being here this morning. This committee, this 
Congress, and the American people have been awaiting your 
testimony.
    Before I go into the substance of my remarks, I want to 
state at the outset that all of us support your mission in 
Afghanistan and the men and women serving under your command. 
For over three months, Washington has been mired in a 
substantial war debate. Pundits and academics alike have been 
weighing in on whether the conflict in Afghanistan is in our 
national interest and if this is a fight we can win.
    In the absence of a clear, authoritative voice during these 
months of the White House review, the course of the debate has 
followed a flood of leaks from the always popular, yet never 
accountable, ``anonymous'' source. To put it mildly, this was 
not helpful. During this time the public support for the war 
waned, and I worry our mission suffered too.
    With the President's speech last week and your testimony 
here today, I believe we have finally turned a corner in this 
war. We must now move from the assessment stage to the 
execution stage of this strategy. Instead of asking if we can 
achieve success, we must now give the time, space, and 
resources that you need to succeed.
    Rather than questioning if the United States has a will to 
win, you, General McChrystal and Ambassador Eikenberry, and the 
thousands of U.S. military and civilians in Afghanistan will 
demonstrate the will of this mission to defeat Al Qaeda, rout 
the Taliban and bring stability to Afghanistan.
    It is time that we conclude this chapter on the war debate 
in Washington and write the next chapter on national consensus 
and mission success. You gentlemen will have the pen; you shall 
be the authors of success. Today you will write the first page 
of this next chapter.
    After these hearings, Washington must step aside and let 
Kabul once again become Ground Zero in this conflict. General 
McChrystal and Ambassador Eikenberry, the task before you is 
enormous. I know that I speak for the entire committee when I 
say that you are the best people to take on this challenge. 
This country is blessed to have leaders like you in its 
service.
    In September your written word when we received your 
assessment--we read your written word when we received your 
assessment. Today we need to hear you speak about the unwritten 
words between the lines of the assessment. This is your 
opportunity to speak to the citizens of this country and 
interested parties across the world. I think when they hear 
from you, they will be convinced of the soundness of our 
strategy and optimistic about the chances for our success.
    Fortunately, much of your assessment seems to have been 
internalized in Washington and by members of this committee. On 
Tuesday night the President agreed to provide you with 
additional troops to execute a counterinsurgency strategy. The 
Commander-in-Chief responded to the urgency of the situation 
when he committed to deploy those forces as fast as possible.
    Last week Secretary Gates testified that our aim is to 
reverse the Taliban's momentum, which is precisely what your 
assessment described as essential to preventing mission failure 
in Afghanistan. Yet the President's speech and subsequent 
testimony last week left me concerned that the Administration 
did not adopt some of the fundamentals of your assessment. 
Nowhere in your assessment did I see discussion of a date 
certain to begin withdrawal. In fact, you wrote that the long-
term fight will require patience and commitment. I believe your 
concern was that the Afghan people are waiting on the sidelines 
to see how committed we are. Did we demonstrate that commitment 
last week?
    On Thursday, Secretary Gates testified that he was 
persuaded by you and General Petraeus that beginning a period 
of transition on a date certain will in fact incentivize the 
Afghans. I look forward to your persuading us of the same 
today.
    Moreover, I cannot find mention in your assessment of the 
need to put pressure on the Afghans to take on responsibility. 
Before last week's speech I assumed, like many, that the Afghan 
National Security Forces (ANSF) were doing everything they 
could to get into the fight. While corruption in the realm of 
governance and development undermined our security efforts, I 
believe that the Afghan Ministries of Defense and Interior were 
part of the solution and not part of the problem. In fact, the 
variable holding back the growth of the Afghan National 
Security Forces were things outside the control of Kabul, 
namely funds to pay for a larger force and more capacity on the 
part of the North Atlantic Treaty Organization (NATO) to train 
the Afghans.
    So where did this new narrative of putting pressure on the 
Afghans come from? What I did not hear last week was a 
commitment to follow the recommendation of your assessment and 
build an Afghan National Security Force of 400,000. Instead, 
Admiral Mullen spoke of taking it year by year. Again, I don't 
recall your assessment recommending incrementalism. I am 
interested to hear how your headquarters will interpret last 
week's guidance from Washington.
    Finally, there is the critical question of resources. 
First, are 30,000 additional forces enough to win decisively? 
As you wrote in the assessment, resources will not win this war 
but underresourcing could lose it. Given the many leaks that 
you requested--at a minimum, 40,000 additional forces--please 
explain why the President is not underresourcing his own 
strategy. Will you have to cut the scope of the mission because 
you did not receive 60,000 to 80,000 more forces? If next year 
you determine that additional forces are required, do you have 
the flexibility to ask for more?
    While we have heard about top-line numbers, we have not 
heard discussion about the composition of these forces. How 
many combat brigades will deploy? How many will be trainers? 
Will each combat brigade receive all its enablers? Will the cap 
of 30,000 forces make you choose between adding combat forces 
or enablers?
    General, Ambassador, this is your opportunity to answer the 
critics and bolster the supporters of this strategy. No one is 
more qualified to do this than you.
    Again, thank you for being here, good luck and Godspeed in 
your mission. I yield back.
    The Chairman. I thank the gentleman from California.
    And on the floor, General McChrystal please.

   STATEMENT OF GEN. STANLEY A. MCCHRYSTAL, USA, COMMANDER, 
INTERNATIONAL SECURITY ASSISTANCE FORCE (ISAF), AND COMMMANDER, 
               U.S. FORCES-AFGHANISTAN (USFOR-A)

    General McChrystal. Mr. Chairman, Congressman McKeon, 
distinguished members of this committee, thank you for the 
chance to appear before you today. I welcome this opportunity 
to testify on our way ahead in Afghanistan, and I am pleased to 
do so with Ambassador Karl Eikenberry, an old friend.
    Let me begin by saluting the bravery of the men and women 
of the International Security Assistance Force (ISAF) in 
Afghanistan. They are anchored by over 68,000 courageous 
Americans, our close partners in the NATO alliance, and a 43-
nation coalition.
    We honor the sacrifices of the fallen, the veterans and 
their families. We also recognize the toll paid every day by 
our counterparts in the Afghan Security Forces and by Afghan 
civilians who ultimately suffer the most from this insurgency. 
It is for them and for all of us that we seek a stable 
Afghanistan, a defunct Al Qaeda, and a secure future in that 
vital region of the world.
    I first deployed to Afghanistan in 2002 and have commanded 
forces there every year since. Despite that experience, there 
is much in Afghanistan that I have yet to fully understand. For 
all of us, Afghanistan is a challenge that is best approached 
with a balance of determination and humility.
    While U.S. forces have been at war in Afghanistan for 8 
years, the Afghans have been at it for more than 30. They are 
frustrated with international efforts that have failed to meet 
their expectations, confronting us with a crisis of confidence 
among Afghans who view the international effort as insufficient 
and their government as corrupt or, at the very least, 
inconsequential.
    We also face a complex and resilient insurgency. The Quetta 
Shura Taliban, or Afghan Taliban, is a prominent threat to the 
Government of Afghanistan as they aspire to once again become 
the Government of Afghanistan. The Haqqani and Hezb-e-Islami 
Gulbuddin insurgent groups have more limited geographic region 
objectives, but they are no less lethal. All three groups are 
supported to some degree by external elements in Iran and 
Pakistan, have ties with Al Qaeda, and coexist within narcotics 
and criminal networks, both fueling and feeding off instability 
and insecurity in the region.
    The mission in Afghanistan is undeniably difficult and 
success will require steadfast commitment and incur significant 
costs. I participated fully in the President's assessment and 
decision-making process and was afforded multiple opportunities 
to provide my recommendations and best military advice, which I 
did. Combined with insights and policy considerations from 
across our government, I believe the decisions that came from 
that process reflect a realistic and effective approach.
    To pursue our core goal of defeating Al Qaeda and 
preventing their return to Afghanistan, we must disrupt and 
degrade the Taliban's capacity, deny their access to the Afghan 
population, and strengthen the Afghan Security Forces. This 
means we must reverse the Taliban's current momentum and create 
time and space to develop Afghan security and governance 
capacity.
    The President's decision rapidly resources our strategy, 
recognizing that the next 18 months will likely be decisive, 
and ultimately enable success. I fully support the President's 
decision. The President also reiterated how this decision 
supports our national interests. Rolling back the Taliban is a 
prerequisite to the ultimate defeat of Al Qaeda. The mission is 
not only important, it is also achievable. We can and will 
accomplish this mission.
    Let me briefly explain why I believe so. My confidence 
derives, first, from the Afghans' resolve, since it is their 
actions that will ultimately matter most in ending this 
conflict with their interest, and, by extension, our own 
secured. Second, we do not confront an unpopular insurgency. 
The Taliban has no widespread constituency, have a history of 
failure in power, and lack an appealing vision. Third, where 
our strategy is applied, we have begun to show that we can help 
the Afghans establish more security and more credible 
governance. Finally, Afghans do not regard us as occupiers. 
They do not wish for us to remain forever, yet they see our 
support as a necessary bridge to future security and stability.
    I have been back in Afghanistan for six months now. I 
believe that with the President's decision and ongoing reforms 
I outlined in our initial assessment, our efforts are now 
empowered with a greater sense of clarity, capability, 
commitment and confidence.
    Let me start with clarity. The President's recently 
completed review of our strategy, to include its deep and 
pointed questioning of all assumptions and recommendations, has 
produced greater clarity of our mission and objectives. We also 
have greater clarity on the way forward. Additional forces will 
begin to deploy shortly, and by this time next year, new 
security gains will be illuminated by specific indicators and 
it will be clear to us that the insurgency has lost momentum. 
And by the summer of 2011, it will be clear to the Afghan 
people that the insurgency will not win, giving them the chance 
to side with their government.
    From that point forward, while we plan to have fewer combat 
forces in harm's way----
    The Chairman. Will the gentleman suspend--the lady with the 
sign will remove herself immediately. Sergeant at Arms, make 
sure she leaves through the door.
    General, please resume.
    General McChrystal. Thank you, Mr. Chairman.
    From that point forward, while we plan to have fewer forces 
in harm's way, we will remain partnered with the Afghan 
Security Forces in a supporting role to consolidate and 
solidify their gains. Results may come more quickly and we may 
demonstrate progress towards measurable objectives, but the 
sober fact is that there are no silver bullets. Ultimate 
success will be the cumulative effect of sustained pressure 
across multiple lines of operation.
    Increasing our capability has been about much more than 
just troop increases. For the past six months, we have been 
implementing organizational and operational changes that are 
already reflecting improvements in our effectiveness, but the 
additional forces announced by President Obama are significant. 
Forces to increase our capacity to train the Afghan National 
Security Forces (ANSF) and forces to partner with Afghan army 
and police in expanding security zones in key areas will 
provide us the ability to reverse insurgent momentum and deny 
the Taliban the access to the population they require to 
survive.
    The additional capability we are building translates into 
credibility in the minds of Afghans who demand proof not only 
that we want to protect them, but that we can. In a war of 
perceptions, where the battlefield is the mind of an Afghan 
elder, the hope of an Afghan mother, the aspirations of an 
Afghan child, this can be decisive.
    Our commitment is watched intently and constantly judged by 
our allies and by our enemies. The commitment of 30,000 
additional U.S. forces along with additional coalition forces 
and growing Afghan National Security Forces will be a 
significant step toward expanding security in critical areas 
and in demonstrating resolve. The commitment of all coalition 
nations will be buttressed by a clear understanding of how we 
will mitigate risks.
    I will briefly mention three. The first is the Afghan 
Government's credibility deficit, which must be recognized by 
all, to include Afghan officials, as a critical area of focus 
and change.
    Equally important is our ability to accelerate development 
of the Afghan Security Forces. Measures such as increased pay 
and initiatives, literacy training, leader development, and 
expanded partnering are necessary to position the Afghan 
National Security Force to assume responsibility for long-term 
security.
    Third, the hazard posed by extremists that operate on both 
sides of the border with Pakistan, with freedom of movement 
across that border, must be mitigated by enhanced cross-border 
coordination and enhanced Pakistani engagement.
    Looking ahead, I am confident we have both the right 
strategy and right resources. Every trip around Afghanistan 
reinforces my confidence in the coalition and Afghan forces we 
stand alongside in this effort. But I also find confidence in 
those we are trying to help. That confidence is found when an 
Afghan farmer chooses to harvest wheat rather than poppy; or 
when a young adult casts his or her vote, or joins the police; 
or where a group of villagers resolves to reject the local 
insurgency.
    We face many challenges in Afghanistan, but our efforts are 
sustained by one unassailable reality. Neither the Afghan 
people nor the international community want Afghanistan to 
remain a sanctuary for terror and violence. And if we are to be 
confident of our mission and our prospects, we must also be 
accurate in our assessment of progress. We owe ourselves, our 
leaders, and the American people transparency and candor 
because the price to be paid is high and the stakes are even 
higher.
    In closing, my team and I would like to thank you and your 
colleagues for your support to the American men and women 
currently serving in Afghanistan and to tell you a bit about 
them. We risk letting numbers like 30k roll off our tongues 
without remembering that those are fathers, mothers, sons, and 
daughters, serving far from home, selfless in their sacrifices 
for each of us.
    The other day I asked a young but combat-experienced 
sergeant where he was on 9/11, and his answer, ``Getting my 
braces removed,'' reminds me that it has been more than 8 years 
since 9/11, and many of our service members and families have 
experienced and sacrificed much. But as I see them in action at 
remote bases, on patrol, partnering with Afghan forces, 
recovering in combat hospitals, they don't talk about all they 
have given up. They talk about all they are accomplishing and 
their determination in this endeavor.
    This is not a force of rookies or dilettantes. The brigade 
commander in Khost is completing its fourth combat tour in 
Afghanistan and its experience and expertise is reflective of 
the force that represents you. All have felt fear and 
loneliness, most have lost comrades, none have lost heart. In 
their eyes, I see maturity beyond their years. In their 
actions, I see a commitment to succeed and a commitment to each 
other. I am confident that I share your pride in what these 
great Americans are doing for our country in Afghanistan, and 
it will be my privilege to accept your questions on their 
behalf.
    Thank you, Mr. Chairman.
    The Chairman. General, thank you.
    [The prepared statement of General McChrystal can be found 
in the Appendix on page 61.]
    The Chairman. After the next witness testifies, I will ask 
that the members of the press, the photographers, move from the 
immediate front to the sides. It would be of great help to us. 
Ambassador, I can barely thank you for being with us, you are 
now recognized, thank you.

STATEMENT OF AMBASSADOR KARL W. EIKENBERRY, U.S. AMBASSADOR TO 
                          AFGHANISTAN

    Ambassador Eikenberry. Chairman Skelton, Ranking Member 
McKeon, and distinguished members of this committee, thank you 
for the opportunity to present my views on Afghanistan today. I 
would ask that my full statement be submitted for the record.
    The Chairman. Without objection. Make sure you get real 
close to the microphone there.
    Ambassador Eikenberry. How is that?
    The Chairman. Much better. Thanks.
    Ambassador Eikenberry. Last week in his speech at West 
Point, President Obama presented the Administration's strategy 
for Afghanistan and for Pakistan. His decision came after an 
intensive, deliberative, and a far-reaching review. I am 
honored to have been part of that. I believe the course that 
the President outlined does offer the best path to stabilize 
Afghanistan and ensure Al Qaeda cannot regain a foothold to 
plan new attacks against us. I can say without equivocation 
that I fully support this approach.
    I consider myself privileged to serve as United States 
Ambassador and to represent an amazing team of diplomats, 
development specialists, and civilian experts who form the most 
capable and dedicated United States Embassy anywhere in the 
world. I am extraordinarily proud of them.
    I am also honored to testify alongside General Stan 
McChrystal, my professional colleague and friend of many years. 
I want to say from the outset that General McChrystal and I are 
united in a joint effort where civilian and military personnel 
work together every day, side by side with our Afghan partners 
and our allies. We could not accomplish our objectives without 
this kind of cooperation.
    As you know, Mr. Chairman, the United States is at a 
critical juncture in our involvement in Afghanistan. On 
December 1, the President ordered 30,000 additional troops to 
deploy to Afghanistan on an accelerated timetable, with a goal 
of breaking the insurgency's momentum, hastening and improving 
the training of the Afghan National Security Forces, and 
establishing security in key parts of Afghanistan.
    On the civilian side, we aim to increase employment and 
provide essential services in areas of greatest insecurity and 
to improve critical ministries in the economy at the national 
level. These steps together will, I believe, help us to remove 
insurgents from the battlefield and build support for the 
Afghan Government. As the President said, we will be clear 
about what we expect from those who receive our assistance. 
After a difficult election, the Afghan Government does show 
signs of recognizing the need to deliver better governance and 
security. We await urgent, concrete steps in a number of areas.
    I would like to briefly discuss the three main pillars of 
our efforts in Afghanistan: security, governance, and 
development. General McChrystal has already addressed our plans 
for improving security and building the Afghan National 
Security Forces.
    Since assuming my post, I have made a special point of 
getting outside of Kabul to see conditions firsthand. I fully 
concur with General McChrystal's assessment that the security 
situation remains serious. Sending additional U.S. and NATO-
ISAF forces to Afghanistan is absolutely critical to regain the 
initiative. And I am confident that as these troops arrive, the 
situation will stabilize and turn in our favor. Additional 
troops will permit us to expand our work with the Afghan army 
and police so that they can take on a larger role in providing 
for their own security. As President Obama said, the transition 
to Afghan responsibility will begin in the summer of 2011 when 
we expect Afghan Security Forces to begin assuming lead 
responsibility for defending their country.
    Moving on from security, the second pillar of our 
comprehensive strategy focuses on governance at the national 
and subnational levels. Our overarching goal is to encourage, 
improve governance, so Afghans can see the benefits of 
supporting the legitimate government, and insurgency loses its 
support.
    As General McChrystal points out, one of the major 
impediments to our strategy face is the Afghan Government's 
lack of credibility with its own people. To strengthen its 
legitimacy, our approach at the national level is improving key 
ministries by increasing the number of civilian technical 
advisers and providing more development assistance directly 
through these ministries' budgets.
    By focusing on ministries that deliver essential services 
and security, we can accelerate the building of the Afghan 
Government to one that is sufficiently visible, effective, and 
accountable.
    At the provincial and the district levels we are working 
jointly with our military through our provincial reconstruction 
teams (PRTs), our district development working groups, and our 
district support teams which help build Afghan capacity, 
particularly in the areas of greatest insecurity in southern 
and in eastern Afghanistan.
    Underpinning all of these efforts is the need to combat 
corruption and promote the rule of law. With our assistance, 
the Afghan Government is steadily building law enforcement 
institutions to fight corruption, organized crime, and drug 
trafficking.
    In his inaugural address, President Karzai stated his 
intention to make merit-based appointments in his new Cabinet 
and to implement an anticorruption strategy. We are very 
encouraged by these statements.
    The cultivation of poppy and trafficking in opium also 
continues to have a debilitating effect on Afghan society. Our 
strategy is multi-pronged here, involving demand reduction, 
efforts by law enforcement agencies and the military to detain 
traffickers and interdict drug shipments, and support for licit 
agricultural development. The narcotics problem will, of 
course, never have a solution without economic development.
    This leads to the third pillar of our effort, which is 
development. In recent months we have adjusted our approach to 
focus on building key aspects or key elements of Afghanistan's 
private sector economy: increasing our emphasis on agriculture; 
enhancing government revenue collection; and improving the 
coordination of assistance within the United States Government 
and the international community. These steps were taken to 
produce improvements in the lives of ordinary Afghans and to 
contribute to more effective government and lessen support for 
the insurgency.
    Rebuilding the farm sector in particular is essential for 
the Afghan Government to reduce the pool of unemployed men who 
form the recruiting base for extremist groups. We estimate that 
some 80 percent of the Afghan population derives their income 
either directly or indirectly from agriculture.
    Mr. Chairman, I want to emphasize that we are concentrating 
on what is essential and what is attainable. The President's 
strategy is based upon a pragmatic assessment of the security 
interest of the United States of America and our belief that a 
sustainable representative government and a sustainable economy 
in Afghanistan are essential to our success. We need a viable 
Afghan Government so our forces can draw down and the 
investment of U.S. taxpayer dollars can be reduced.
    Now in closing, I would like to mention two important risks 
that we face in carrying out this strategy and which I share 
with General McChrystal. The first is, in spite of everything 
we do, Afghanistan may struggle to take over the essential task 
of governance and security on a timely basis.
    Second, our partnership with Pakistan. The effort we are 
undertaking in Afghanistan is likely to fall short of our 
strategic goals unless there is more progress at eliminating 
sanctuaries used by the Afghan Taliban and their associates 
inside of Pakistan.
    If the main elements of the President's plan are executed 
and if our Afghan partners and our allies do their part, I am 
confident we can achieve our strategic objectives. I say this 
with conviction because for the first time during my three 
tours in Afghanistan, all of the elements of our national power 
are being employed, with full support of the President and, 
increasingly, with our allies.
    Achieving our goals inside of Afghanistan will not be easy, 
but I am optimistic that we can succeed with the support of 
Congress. Our mission was underresourced for years, but it is 
now one of our government's highest priorities, with 
substantial development funds and hundreds of more civilian 
personnel. We will soon have increased our civilian presence in 
Kabul threefold, and, in the field, sixfold just over the past 
year. We will, of course, need more.
    United States foreign assistance is also a comparatively 
small but essential fraction of the total amount spent in 
Afghanistan over the last eight years. Additional resources 
will be necessary, and we look forward to sharing more details 
of our anticipated needs with Congress in the coming days and 
weeks.
    Mr. Chairman, Afghanistan is a daunting challenge. Success 
is not guaranteed, but it is possible. With additional troops 
and other resources provided by the President, and with the 
help of the United States Congress, we will work tirelessly to 
ensure that Al Qaeda never again finds refuge inside of 
Afghanistan and threatens our country and our homeland.
    Thank you, Mr. Chairman. I look forward to your questions.
    The Chairman. Thank you so much for being with us.
    [The prepared statement of Ambassador Eikenberry can be 
found in the Appendix on page 68.]
    The Chairman. If there are any photographers in the 
immediate front of the witnesses, please move to the side. I 
believe some already have, if not all. Thank you for that.
    General McChrystal, tell us what your mission is.
    General McChrystal. Mr. Chairman, I believe that our 
mission is to do two things. First, Al Qaeda is a threat to the 
United States and/or our allies worldwide. Our ability to 
prevent Al Qaeda from reestablishing safe havens inside 
Afghanistan is key. As most people know, many of the 9/11 
hijackers were in fact trained on Afghan soil in Al Qaeda-run 
training camps. And it is critical we prevent their ability to 
return to spaces inside Afghanistan and repeat that kind of 
activity.
    Wider than that, our mission is to help the Government of 
Afghanistan have the ability to defend itself, to conduct its 
own nation-building, to provide it time and space for it to 
labor or effectively fend off existential threats to its 
sovereignty.
    The Chairman. Gentlemen, do you agree with the President's 
decision to strategize and increase the number of troops?
    General McChrystal. I agree with the President's decision, 
and I believe that it provides me the resources that we need to 
execute strategy to accomplish the mission as outlined for us.
    The Chairman. General, will you be successful in your 
mission?
    General McChrystal. I believe we will absolutely be 
successful.
    The Chairman. What do you need from us, General, the Armed 
Services Committee?
    General McChrystal. I believe the resources have been 
provided by the President's decision. I believe what we need 
from the Armed Services Committee and from the American people 
is continued commitment and support for our force in this 
mission.
    The Chairman. Ambassador Eikenberry, the November 12 
Washington Post discussed two leaked cables sent by you. Let me 
read: ``U.S. Ambassador to Kabul sent two classified cables to 
Washington in the past week, expressing deep concerns about 
sending more U.S. troops to Afghanistan until President Hamid 
Karzai's government demonstrates that it is willing to tackle 
the corruption and mismanagement that has fueled the Taliban's 
rise, senior U.S. officials said.'' Would you explain those two 
leaked telegrams?
    Ambassador Eikenberry. Thank you, Chairman. If I can make 
three points: First, throughout the very vigorous review of our 
strategy that went on for a three-month period of time, all the 
participants----
    The Chairman. Get a little closer to the microphone, 
please.
    Ambassador Eikenberry. How is that?
    The Chairman. Very good.
    Ambassador Eikenberry. Chairman, thank you. Let me make 
three points. First of all, in the process of the strategy 
review that went on for three months, all the participants in 
this very vigorous review process were encouraged to state 
their assessments and their recommendations. All of the 
participants did that in a variety of ways, through video 
teleconferences, through direct conversations, through written 
communications.
    My second point is I would like to clarify that at no point 
during this review process, Mr. Chairman, was I ever opposed to 
additional troops being sent to Afghanistan. As I said during 
my opening statement, I fully agree with General McChrystal's 
review of the strategic assessment he had done, and I shared 
his views about the security situation which was dire in 
certain places of the country. I completely shared his view 
about the need for the accelerated growth of the Afghan 
National Security Forces. That requires additional U.S. troops 
and North Atlantic Treaty Organization (NATO) troops to 
accomplish that.
    So it was not a question of additional troops, it was the 
question, as we all had, about the number of troops, what would 
be the timelines for those troops, what would be the context 
that those troops would operate in.
    And then the third point I wanted to make as a result of 
this very extensive review: the mission was refined, the ways 
forward were clarified, and the resources now have been 
committed to allow us to achieve the refined mission.
    With that at this point in time, as I said in my opening 
statement, Mr. Chairman, I am unequivocally in support of this 
mission and I am exactly aligned with General McChrystal here 
to my right in moving forward now to vigorously implement the 
assigned mission.
    The Chairman. I thank the Ambassador.
    The gentleman from California, my good friend, Ranking 
Member Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    General McChrystal, the Washington rumor mill has been 
thriving over the last three months, as the last question we 
just had there. You know, I have heard that your request of the 
President was anywhere from 10,000 to 80,000 additional troops. 
We have not been given your request; all we have had to go on 
is what we have heard. With each option I know that you 
requested, you tied it to a risk factor.
    Now, when I was in Afghanistan, in August, and we met, I 
mentioned that I knew you had been given certain direction from 
the Secretary and from others, and I asked you directly if that 
was going to influence the request that you made of the 
Commander-in-Chief. You told me no. You said you had a moral 
obligation to ask for what you needed to be successful in the 
mission. As I mentioned, Congress has not had the opportunity 
to review your troop request. We were able to read the original 
assessment that you sent. But I have the highest level of 
confidence that you adhered to your word and asked for what you 
thought you needed, given your best military judgment, to be 
successful.
    General, can you tell this committee and the American 
people, what were the different force options you requested and 
the degree of risk that was tied to those requests?
    General McChrystal. Congressman, that is still a classified 
document, so I am unable to go into detail. But I can certainly 
go into the process, and I would like to do that.
    When we completed the initial assessment, we went into a 
resource analysis, which we called it, which is the classified 
document. And in that, as I outlined to you during your visit, 
we identified different force packages with associated risk 
based upon our assessments of that. And then I said that I 
would also make a recommendation--technically not a request at 
that point--but a very direct recommendation of my chain of 
command and what the appropriate force level was. And I did 
that.
    Through this process, then, when that went into the 
President's assessment and decision-making process, what I was 
very pleased about is, beginning with my initial assessment, I 
was not only encouraged to be candid and straightforward, I was 
demanded to be candid and straightforward. So as we went 
forward with what was then in the resource analysis, and that 
became part of what was considered in the President's 
assessment throughout that process, which was exchange of 
different documents and then a series of secure video 
teleconferencing (VTCs), in every case I was able to make my 
recommendations or my analysis, and they would come back for 
more detailed rationale so that I could explain that.
    I thought it was a very healthy exchange, as Karl laid 
out--I am sorry, Ambassador Eikenberry laid out, getting 
everything on the table and getting everybody very clear on 
where we were. What I think came out of that was as we focused 
on the mission, the understanding of the mission, I believe the 
President's decision reflects resourcing--resources that do, 
that are congruent with what I recommend we needed. So I am 
very comfortable with the outcome, resource-wise, of what was 
made in the process.
    Mr. McKeon. General, would you be willing to, in a 
classified session with the committee, give us what you asked 
for?
    General McChrystal. Absolutely, sir.
    Mr. McKeon. Let me frame the question in a little different 
way in public. Did you ask for 30,000 troops in 2010?
    General McChrystal. I asked for forces to be deployed as 
quickly as they could be deployed. And as the flow worked out, 
that was going to be about that in 2010. But I didn't ask it in 
that way, sir.
    Mr. McKeon. Thank you, General. Did you recommend that the 
troops begin withdrawal by July 2011?
    General McChrystal. I did not recommend anything to do 
with--I made no recommendations at all on that.
    Mr. McKeon. In your judgment, does the deployment of 30,000 
troops to the eastern and southern parts of the country and the 
18-month timeline provide the least risk and most opportunity 
for success compared to the other options you gave to the 
Commander-in-Chief?
    General McChrystal. I believe that nothing in this is 
without risk--as you have said, with least risk--so I think it 
is appropriate risk.
    What I would like to do is give the wider context of this. 
As we look at our partnership with Afghanistan from now through 
the strategic partnership that the President and Secretary of 
Defense have discussed in the long term, what in fact we have 
done is provided the Afghans the assurance that we are going to 
be strategic partners with them.
    Now, that likely will not involve combat forces; it will 
involve different things over time. But it is a very important 
part of the long-term commitment to them. And if you are in the 
insurgency, that is also a very difficult fact to deal with 
because it essentially makes the insurgent long-term approach 
not viable.
    If you come to near term, the President has just announced 
30,000 additional U.S. forces, and we expect to get some range 
of additional coalition forces. So starting very quickly, 
beginning this month actually with deployment, we will have a 
significantly increased force on the ground that will allow us 
to turn the momentum, both actual momentum on the ground and 
momentum in the eyes of the Afghan people, over about the next 
18 months. I believe the next 18 months are the critical period 
in this war because I believe they are critical in the minds of 
the Afghans and in the minds of the insurgency.
    So I believe that the resources we have been provided, 
along with the strategy which we have already started 
implementing and the resolve reflected by the support of the 
American people and our other coalition allies, I believe for 
this 18 months we are going to make tremendous progress against 
this, while we simultaneously grow Afghanistan's capacity to 
provide for its own security. That then bridges to the long 
term.
    So I am very comfortable where we are now as we go out 
toward the strategic partnership, and I don't believe the July 
2011 time frame militarily is a major factor in my strategy.
    I do want to say up front, there are people who will grab 
onto that, I think inappropriately. And they will try to use it 
in information operations and describe it as something that it 
is not, in terms of a lack of commitment on the part of the 
U.S. and the coalition, because we have committed to a long-
term partnership. But I think we can deal with that.
    On the positive, it is a bit of a forcing function. By 
being very clear to all the players involved that we are going 
to be looking hard at things, it provides a forcing function 
and impetus for moving forward for the Afghans and others to 
continue to make progress towards their own capacity.
    Mr. McKeon. Thank you. Finally, General, I know we moved 
the additional forces in earlier this year. I believe they 
began arriving in April, May, June, and we began an offensive 
July 1st. You have had time now to assess that. It is almost 
what we are projecting for next year. We will have forces 
arriving, some this month and some early next year, and then we 
are looking to another review next December.
    So, based on how you assess the effort this year and then 
the increased effort next year, will you feel good about being 
able to assess for another review next December of how we are 
doing to date?
    General McChrystal. I will. And of course we will do 
constant assessments, as we do, to see where we are. I actually 
think the progress already being made by the forces approved in 
March and the other steps we have taken and how we operate are 
cumulative with the additional forces that will start flowing 
in. We are actually going to start earlier this year than those 
that were approved in March. And we are going to try to flow 
these initial forces and employ them as quickly as we can. So I 
actually think that by December we will have had more time to 
mature our thinking and show real progress, and I am confident 
that we will.
    Mr. McKeon. And finally, General, do you feel that you will 
have the flexibility a year from now, December of 2010, to ask 
for additional forces if your assessment at that point points 
to those additional forces needed for success?
    General McChrystal. I believe I will have the 
responsibility to give my best military advice, whichever the 
direction the situation is going. I do not anticipate the 
requirement to ask for additional forces, but I would always 
provide my candid best military advice.
    Mr. McKeon. Thank you very much, General. Thank you Mr. 
Chairman.
    The Chairman. Thank you. General, how good are the American 
troops on your command?
    General McChrystal. They are even better than we think they 
are. They are--they are amazing. I have been in 33 years. Karl 
and I served together most of that. And when I compare it to 
when I came in in the seventies, it is completely different. We 
are fighting an extended war with a very professional force, 
augmented by civilian, or citizen, soldiers who do an 
extraordinary job.
    I was up at Walter Reed yesterday, as many of you do, 
seeing our wounded. And as I met with soldiers and sailors who 
had been wounded, their sense of commitment to get back into 
their units, back with their forces, was extraordinary and 
their sense of focus on the mission.
    And then when I go down--on Thanksgiving I flew around to 
as many combat outposts as I could, and I went to--I don't know 
how many, but it was a lot--on one of them it was a young 
second lieutenant platoon leader along with an Afghan National 
Police element. And the organization was out there in the 
middle of nowhere and they did not have hot chow because their 
generator wasn't working, and there wasn't a complaint at all.
    One of the young sergeants came up to me and talked about 
partnering with the Afghan Police because you know they are the 
much-maligned Afghan National Police. He said, ``Sir, you have 
to understand this is working great. This is extraordinary, the 
progress we are making. We should have started this months 
ago.'' That unit is on the 11th month of the 12-month 
deployment.
    So when I see that every time I get out, I am 
extraordinarily convinced how good they are and how well they 
are doing in what we have asked them to do.
    The Chairman. You mentioned the citizen soldiers, all of us 
have National Guard troops that have been deployed. How good 
are the National Guard troops?
    General McChrystal. Well, they are extraordinary. But one 
of the things I would say, sometimes someone will fall in and 
say they are just as good as Active Duty or Active Army Regular 
troops. That is not the case. In many cases they bring unique 
skills--like the Agricultural Development Teams (ADTs) that are 
around the country--bring things that active components--skills 
and maturity active components don't have. They are not exactly 
the same, but together they are much better.
    And we are losing--we are paying a price with our citizen 
soldiers in casualties and in lost time away from home, just 
like we are with our entire force. So I just could not--I 
cannot say enough about their performance.
    Ambassador Eikenberry. Chairman, may I say one word?
    The Chairman. Ambassador, the question is put to you: How 
good are our troops?
    Ambassador Eikenberry. Chairman, our troops are----
    The Chairman. Get closer, please.
    Ambassador Eikenberry. Our troops are every bit as good as 
General McChrystal said they are. I wish when we were 
lieutenants together, they were as good as they are now.
    If I could say a word about the civilians that are in 
Afghanistan as well. Chairman, with your permission, our 
civilian force that we have got in Afghanistan representing the 
full interagency of our government, the Federal Bureau of 
Investigation (FBI), the Drug Enforcement Administration (DEA), 
the Department of Agriculture (USDA), the United States Agency 
for International Development (USAID), our State Department--I 
could go on--Treasury. They are also, we would say, a world-
class force.
    If I could give you one example. On the 13th of October at 
a U.S. Army, a unit of Stryker Brigade operating down in Spin 
Boldak in southern Kandahar, a convoy was hit by improvised 
explosive devices (IEDs). As the Ambassador, whenever I learn 
that we have got civilians that are in harm's way, I will give 
them a call that night to see how they are doing. In this 
particular case, there was a Mr. Jim Green from the Department 
of Agriculture, 55 years old from Oklahoma, and there was Mr. 
Travis Gardner, USAID, 38 years old from Nebraska. They were in 
the same convoy out there, doing their job as agricultural 
specialists with the U.S. Army. I talked to them both on the 
phone that night, asked them how they were doing. They said 
they were doing fine, they were just out there doing their job 
with the U.S. Army.
    We should be enormously proud of the U.S. civilians who are 
serving alongside our soldiers, sailors, airmen, and marines.
    The Chairman. Thank you very much. I am informed the 
witnesses have a hard stop at 12:30. With that, we are under 
the five-minute rule. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman, and General and 
Ambassador, thank you for being here with us this morning.
    The President commented in his speech at West Point that we 
are being assisted by 43 countries. As we go around the world 
trying to convince other countries to join in the fight, 
because truly this fight against Al Qaeda, somehow we have to 
convince the rest of the world that it is in everyone's best 
interest to assist, there are two issues that are brought up. 
The first one is that somehow the belief is that we are going 
to leave there, and leave prematurely. Secondly, that something 
has to be done about the corruption within the Karzai 
government.
    In particular, those two issues are very important to the 
traditionally Muslim countries where I think we need to focus 
to get their assistance into this very critical region of the 
world.
    Can you comment, first of all, on how we can convince 
others to join in this effort? Secondly, on the issue of 
corruption and the things we can do to change that? Both of 
you, please.
    General McChrystal. Great. Congressman, I thought I would 
start on how we can convince others to stay focused on this. We 
do have 43 nations. In fact, that is about to go up fairly soon 
as well. And that is extraordinarily important to the effort 
for a couple of reasons.
    One, they all bring capacity. But it is also very important 
because we are a coalition there, we have additional 
credibility with the Afghan people. They know a coalition will 
never be occupiers. So there is no way to paint us as the 
Soviet Union. So that is very important. I think it is 
important to all our coalition partners to stress our long-term 
strategic commitment with Afghanistan. Many of our coalition 
partners are there because they believe it is important. Others 
are there because they believe that either the NATO alliance or 
the relationship with the U.S. is another factor. And I think 
that is very important. But stressing the consistency of our 
commitment I think is the most key point.
    Mr. Reyes. And General, you don't think that the deadline, 
18-month deadline, affects the commitment in other nations' 
eyes?
    General McChrystal. I believe that if we put the perception 
of that, because in fact I don't--I don't view July 2011 as a 
deadline. I view that as a point at which time the President 
has directed we will begin to reduce combat forces, but we will 
decide the pace and scope of that based upon conditions at that 
time. So I don't believe that is a deadline at all. I think it 
is just a natural part of the evolution of what we are doing.
    Ambassador Eikenberry. Congressman, if I could address your 
question about corruption. General McChrystal and I both in our 
opening statements, we emphasized the importance of efforts to 
help strengthen the legitimacy of the Government of 
Afghanistan. We are working right now in many areas. Let me 
just highlight three.
    First of all are combined efforts, partnered efforts with 
the Government of Afghanistan to improve their law enforcement 
capabilities. We have many programs. One, for instance, the 
development of a major crimes task force, the equivalent of an 
Afghan FBI, is led by our FBI in training efforts, and our 
allies.
    Secondly, we are working to help improve the transparency 
and the accountability of key Afghan ministries through 
certification programs. More of our money, of our development 
money is going directly into Afghan ministries that are 
certified in a transparent way. And this requires partnership 
as well. Right now, about 80 percent of the developmental 
dollars being put in by the international community into 
Afghanistan are outside of the Afghan budget. So they need help 
in this area as well.
    And then third, we are working hard, again with the 
combined international effort, to help improve the civil 
service of Afghanistan. These are long-term efforts. There is 
not going to be any kind of silver bullet. But I am optimistic 
we can make progress. But this all has to be underpinned by 
Afghan leadership.
    Encouragingly, President Karzai in his inauguration 
address, he did talk about efforts to go after corruption. But 
this is something we have to make progress on over the next 12 
months and the next 24 months. We are going to need more Afghan 
leadership and more commitment, but also we are going to have 
to do this in partnership with the Government of Afghanistan.
    Mr. Reyes. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    I read an article this morning, I think it was from the 
Washington Post, that was talking about an Afghan with one eye 
and a beard to his chest, and he had aligned himself with the 
national government and with our presence there. And he 
acknowledged that if the Taliban came back to power, they were 
going to cut his head off. If that is the general perception of 
Afghans, isn't it going to be kind of difficult to get them to 
align themselves with the federal government and with us?
    Let's imagine, for a moment, that I am one of the bad guys. 
I am evil, but I am not an idiot. I have long-range plans, and 
above all, I am very patient. The President has signaled that 
we are going to begin a drawdown in July of 2011. And if 
conditions on the ground are okay, that drawdown is going to 
continue apace. I am going to make sure conditions on the 
ground are okay, because I am a very patient guy. And two years 
or so is not very long to wait. I am just going to cool it for 
those two years or so, and then these guys are going to be 
gone, and I can have at it.
    Isn't it going to be frightfully difficult to recruit 
Afghans if they know that if we are not successful, and success 
is not insured, we are not successful, they are going to have 
their head cut off or something like that? And why isn't it 
true that the bad guys, who have far more patience than we 
have--that part of the world sees the future very differently 
than we do. I led a Congressional Delegation (CODEL) to China 
to talk about energy. They began their discussion of energy by 
talking about post-oil. That is a long way off, sir. Why won't 
they just wait us out? Why isn't this a really nonproductive 
approach and solution to that problem?
    General McChrystal. Two great points that I would like to 
bring out on this. First is that you are right about the 
insurgency and their use of coercion. They will and they do 
threaten people. And it is very powerful, because the threat of 
being harmed stops you from making decisions you might 
otherwise make. And so it is important that we be able to 
protect the Afghan people. We can try to win their hearts and 
minds in the near time, but you must be able to protect them 
from coercion.
    The second point, however, is that the insurgency has an 
essential weakness in this, and the challenge that doesn't 
allow them to simply wait. First, they are not popular. They 
are not a national liberation front that people inside are just 
waiting for their success. They succeed largely on their 
coercion. But if they go to ground or if they go to areas and 
simply wait, what happens is, during that period, as we protect 
the Afghan people along with our Afghan partners and build up a 
way of life and convince the Afghan people that they have a 
stake in this better way of life, then the society becomes more 
durable, it becomes more difficult to coerce because the people 
have something to protect, and they have got something to lose 
which they don't want to lose.
    Additionally, at this same time, the Afghan Government, 
particularly the Afghan National Security Forces (ANSF), are 
building their own capacity up. And so, as the people are 
starting to buy into a new life and their government has 
increased capability to defend them, then suddenly the 
insurgents, who may have waited patiently, are faced with a 
much less vulnerable target or much less vulnerable Afghan 
populace. So they really can't afford to wait. And this is the 
key to us trying to establish security and a future in the 
minds of the Afghan people as we go forward.
    Mr. Bartlett. One of the major problems, sir, is the 
central government, which is inept, ineffective, and enormously 
corrupt. Do you see that changing? I read about one Afghan who 
was really happy in 2001 when we got the Taliban out of there, 
but he now would welcome them back because at least they are 
predictable, at least they administer justice, at least they 
are not corrupt. What kind of confidence do you have that the 
Afghan Government can in fact become a central government? They 
have never had a central government in 300 years. It has been 
tribal rule. Why do you think that is going to change?
    General McChrystal. I think it will change. They have had a 
central government, at least in my view, but it has never been 
a central government that has the same kind of control over 
local levels that we might in different models.
    Mr. Bartlett. It has been a pretend central government, 
hasn't it, sir?
    General McChrystal. I think it has been a legitimate 
central government. But again, it does not run things quite the 
way in most nations that we are familiar with. But I believe 
that this is the hard part; this is probably the most difficult 
task we have is to create credible governance at the local 
level that reaches to the national level.
    Mr. Bartlett. Thank you, sir.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    Ambassador Eikenberry, I've got my colleague Todd Akin 
here. About a year and a half ago we did a report from the 
Armed Services Committee, actually we stumbled onto this 
looking at the Provincial Reconstruction Teams (PRTs), 
``Deploying Federal Civilians to the Battlefield: Incentives, 
Benefits, and Medical Care.'' I think I will do this as a 
question-for-the-record (QFR). But what we found 18 months ago 
was there is quite a bit of discrepancy in civilian incentives, 
support for family, wounded. I mean literally having a military 
person and a civilian U.S. Government person killed in action, 
and yet they were treated differently.
    And I would encourage you as a question-for-the-record to 
report back to us, are you satisfied that as we augment the 
number of civilians going into harm's way that they will be 
treated fairly and their families will get the kind of support 
and they will get the kind of support that we would expect?
    Ambassador Eikenberry. That is a very important question, 
Representative, and we will get you an answer back for the 
record.
    Dr. Snyder. Thank you.
    General McChrystal, I don't want to do too careful a 
reading here, but the written comment or your statement that 
was given to us says final statement, and then but you did make 
one change here on page three, talking about the summer of 
2011. Your written statement says, from that point forward, 
while we begin to reduce U.S. combat force levels, we will 
remain partnered with the Afghan security forces in a 
supporting role.
    You changed that in your oral statement here today: From 
point forward, while we have fewer forces in harm's way. I 
assume that is just an acknowledgement that if you reduce 
forces, you are not--there is nothing the President said that 
said you couldn't pull out support troops. I don't want to do 
too careful a reading of that, but that an acknowledgment that, 
in your written statement, you said reduce U.S. combat force 
levels----
    General McChrystal. Sir, that is more a case of last-minute 
editing, which I probably didn't catch as I went through this. 
The bottom line is we will start to reduce troops----
    Dr. Snyder. In some capacity.
    General McChrystal. And I expect it will start with combat 
forces, but it would have to be balanced.
    Dr. Snyder. I think that is fair. I don't want to make too 
much of that. In neither your written statements nor your oral 
statements did I hear a lot of discussion about possible 
incentives for getting people who are currently connected with 
the Taliban to come over to a different side. And I don't need 
any detail on this. I assume that is in the discussions and 
part of the mix. Is that correct?
    General McChrystal. It is. That must be a Government of 
Afghanistan-run and managed program. But we have stood up a 
particular cell to support them in that. We have resources 
available to do that. We think it is critical to offer 
fighters, maybe not the most senior leaders of the Taliban, but 
fighters the ability to leave the battlefield.
    Dr. Snyder. And you have everything from Congress that you 
need to pursue those different objectives?
    General McChrystal. We do.
    Dr. Snyder. General McChrystal, I had some communication, I 
think it was the day after the President's speech, and you 
mentioned information ops and how people would respond overseas 
to the discussion about middle of 2011, which is a fair 
discussion. And this major that is currently in the military is 
currently training captains for deployment overseas.
    Put me in the position of being the village elder who has 
got a brother who has been killed by the Taliban, and you are 
the captain, the young captain just assigned to Afghanistan. 
What are you going to tell me about what does that mid-2011 
mean if I and my family and clan in my geographic area that I 
control align myself with the international forces? What are 
you going to tell me about what that date means?
    General McChrystal. I start with the fact that we have 
committed to a strategic partnership. And that is what I try to 
explain to the village elder. We are going to stay partnered 
with the Government of Afghanistan and the people of 
Afghanistan for their future, whatever that has to look like. 
Then I walk him back and say, in the near term, we are going to 
do a significant effort to grow your Afghan National Security 
Forces so Afghanistan can be secured by Afghans. And we are 
going to use additional coalition forces to provide time and 
space, breathing space to do that.
    I would then come back to him, and I would say this is a 
shared responsibility. Afghanistan belongs to Afghans. 
Afghanistan must be built and secured by Afghans. And I would 
say that they have got to make the decision to do the kinds of 
things that help that process along. It is difficult. It does 
put people in hard decisions. I go back to our revolution, 
where our leadership put an awful lot on the line. And an awful 
lot of people in Afghanistan are in the position of doing the 
same thing.
    Dr. Snyder. Thank you.
    Finally, General McChrystal, there has been some 
acknowledgment I think through the years that the women in the 
military, your women troops have performed very, very well, and 
that this is a different kind of war than some of the 
legislative restrictions we have had on the assignment of 
women. Do you see any reason that the Congress shouldn't 
consider, as time goes by, giving more flexibility to the 
military for the assignment of women so you don't feel like you 
have your hands tied when you are assigning units or posting 
women? Is there anything out there you see that would restrict 
that?
    General McChrystal. Sir, to be honest, I haven't given it a 
lot of thought. I will tell you, on the battlefield, I don't 
give it a lot of thought now because our female forces perform 
amazingly well. And I haven't run into many situations where, 
at least at my level, I found that to be a consideration.
    Dr. Snyder. Thank you.
    Thank you for your service.
    The Chairman. Thank the gentleman.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. General, I want to 
express appreciation for your service, especially over the last 
eight years. The success you have had in a variety of jobs, and 
the way you have achieved that success gives me and I think 
others with some insight into your role a much greater 
confidence that our strategy will be assessed and implemented 
appropriately to make the mission in Afghanistan a success. Let 
me start, we have heard a lot in the last week about how the 
mission has been narrowed. And I would appreciate some 
specifics from you about what was in your mission at the end of 
August that is no longer your mission in December?
    General McChrystal. I think that the best--the way I look 
at it is the mission has been effectively and appropriately 
refined. As we went into the process from the President, as we 
took the information that was in the President's strategy 
decision in March and then in subsequent documents, and we 
informed ourselves with those in our initial assessment and our 
campaign design, we designed a campaign that would focus on 
those areas we thought that needed to be secured. Not every 
part of Afghanistan is either under threat or needs to be 
secured at the same level.
    We focused on those to determine what level of force we 
would need, both Afghan security forces and coalition forces, 
to be able to do that. As we went in and made our 
recommendations through the chain of command on that, in fact 
that turned out to be a great point around which we discussed 
to refine everybody's understanding of the mission.
    In fact, we had the word defeat, which we had received in 
the initial guidance, but that gave us a great opportunity to 
discuss that in a tremendous amount of detail because in 
military terms, defeat actually means render an enemy incapable 
of accomplishing his mission. It does not mean that you 
eradicate that enemy down to the last individual. It could be 
similar to politics, where you defeat the other party in an 
election, but you don't wipe them out.
    So as we look at the strategy, this really helps govern how 
many forces you need and where you need to go. So it turned out 
to be a very, very helpful process as we did this, as we were 
forced to explain just how much terrain, how much of the 
population we had to protect, the lines of communication that 
were important for that, and then the forces we thought that 
were appropriate for that. That was the essential refining that 
I think was very valuable.
    Mr. Thornberry. Okay. In your assessment at the end of 
August, you talk a lot about the need to fully implement a 
counterinsurgency strategy, different culture, different 
organizations, great differences beyond the number of troops. 
And yet I really haven't heard very much about that in the last 
week. Were the recommendations you made about different 
strategy, organizational changes, and other things fully agreed 
to by the White House?
    General McChrystal. To my knowledge, they were. In fact, 
they have also been extraordinarily supported across NATO with 
our NATO-ISAF partners. This is a long-term process because you 
are asking a force that was designed and raised culturally, 
most of our forces, to do different things, to operate a 
counterinsurgency.
    But starting when I arrived in June, we have been pushing 
in that direction. We haven't been stopped in any of those 
areas. We have reorganized our command; we have stood up 
several new commands inside it, an intermediate joint command. 
We have stood up an element to run detention operations. We 
have stood up a counterinsurgency advise and assisting. So we 
have done these things.
    Culturally, we continue to work inside our force, and we 
make progress. Most of our forces do very well. But there is a 
mind-set to do counterinsurgency that really takes a lot of 
learning and maturity over time. So it will probably be 
unfinished business forever.
    Mr. Thornberry. In your August assessment, you say that 
failure to gain the initiative and reverse the insurgent 
momentum in the near term, parentheses, the next 12 months, 
risks an outcome where defeating the insurgency is no longer 
possible. If that was true in August, does that mean we have 
nine months to turn this thing around?
    General McChrystal. I think it is important that we turn it 
around quickly. I might say a little bit longer now. But we 
used the last six months at full throttle. So we didn't waste a 
minute of the last six months.
    As we start to deploy the forces which were just approved, 
we have got a foundation to put on to those. What I tell inside 
my command now is, by next summer, I expect there to be 
significant progress that is evident to us inside our force. By 
next December, when I report back to you in detail, I expect 
that we will be able to lay real progress out that will be 
clear to everyone. And by the following summer of July 2011, I 
think the progress will be unequivocally clear to the Afghan 
people. And when it is unequivocally clear to them, that will 
be a critical, decisive point.
    Mr. Thornberry. Thank you.
    The Chairman. Thank the gentleman.
    The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you both, gentlemen, for being before us today.
    General McChrystal, on March 27th of this year, President 
Obama announced a new strategy for Afghanistan, which included 
a deployment of 20,000 additional troops. The President 
stressed that there were four goals to that strategy: Number 
one, to disrupt terrorist networks in Afghanistan and Pakistan; 
two, promote capable, accountable, and effective Afghan 
Government--I would assume that means not corrupt; number 
three, develop self-reliant Afghan security forces that could 
lead the counterinsurgency; and four, involve the international 
community to actively assist in addressing those objectives.
    So it has been eight months later, and we are hearing the 
same objectives for this new strategy being presented to us. 
Only this time, it is going to cost us an additional 30,000 
troops.
    So, General, let me read this question because it is a 
little detailed. President Obama stated that the withdrawal of 
U.S. forces from Afghanistan will begin in July of 2011. And 
that promise, of course, has been reinforced, but somewhat 
ambiguously, by the Secretary of Defense, the Secretary of the 
State, and the National Security Adviser. I watched them all on 
Sunday shows. All of those officials cautioned that the pace 
and the completion of the withdrawal will be conditioned on 
concrete progress towards our strategic objectives on the 
ground in Afghanistan. And that promise to begin the withdrawal 
at a certain date, and the stipulation that the pace of 
withdrawal will be conditional, struck many of us as 
fundamentally inconsistent for two reasons.
    If conditions on the ground are paramount, then it is not 
really possible to predict a date when withdrawal will make 
sense. And two, conditions on the ground are dependent on a 
wide array of variables, many of which are beyond our control, 
including the strength of the enemy force and the readiness of 
the Afghan forces to assume responsibility.
    So, if you could answer yes or no, please, if U.S. troop 
withdrawal is truly dependent on the conditions on the ground, 
as Administration officials have stated, will you oppose a 
reduction of U.S. forces beginning in July 2011 if such 
reductions would jeopardize the mission or the security of the 
force?
    General McChrystal. I can't really answer that yes or no, 
Congresswoman, but I can give you a wider answer.
    Ms. Sanchez. Was that a yes or a no, General?
    General McChrystal. I cannot answer that yes or no. What I 
will do is tell you that, although I will always give my best 
military advice, I think trying to speculate to that particular 
condition would be inappropriate for me at this particular 
time.
    Ms. Sanchez. Okay.
    Let's set aside the projected withdrawal of July 2011. If 
security conditions on the ground continue to deteriorate after 
the troop augmentation is completed next year, is it possible 
that you will request additional troops? Or put it another way, 
if your professional military judgment leads you to the 
conclusion that additional troops are needed to successfully 
accomplish the mission, will you ask the President for 
additional forces?
    General McChrystal. I will always provide my best military 
advice as candidly as possible and when I think it is 
appropriate.
    Ms. Sanchez. Was that a yes or a no?
    General McChrystal. That is, I will always provide my best 
military advice, Congresswoman. If the conditions warrant my 
assessment to make advice in that way, of course.
    Ms. Sanchez. Okay.
    Then for the ambassador, Ambassador, I have been very 
reluctant to endorse President Obama's request for 30,000 new 
troops. I noted that, in Vietnam, one of the biggest problems 
we had were governments that were corrupt and not well aligned 
with what the people needed in Vietnam.
    So my question to you is, have you seen anything in the 
last 18 months that would tell us that the Karzai government is 
doing something about corruption? Have you seen him, I don't 
know, arrest his brother, put people in jail, bring people to 
trial, stand up a court system that is actually going to take 
care of some of this corruption, ask him for the numbers to 
Swiss bank accounts? What have you seen the Karzai government? 
Because he has been there for five years. He has just gotten 
another five years. And we know that it has been completely and 
totally corrupt.
    Ambassador Eikenberry. Congresswoman, as I had said during 
my opening statement, I have said----
    The Chairman. Please get closer.
    Ambassador Eikenberry. As I said in my previous answer to a 
previous question, what you are asking about right now, the 
need to improve the accountability of the Afghan Government, it 
is central to our success. But against that, we have to be 
clear, over the last seven years, starting from a very, very 
extraordinarily low baseline, there has been progress in 
Afghanistan.
    If you look at the Government of Afghanistan and the 
central ministries right now, there is some success there. The 
Ministry of Public Health, the Ministry of Education, the 
Ministry of the Interior. Now your question about the need to 
improve in efforts against corruption, there are points of 
excellence right now in the Afghan Government. We have got 
progress that has been made in the counternarcotics sector with 
a very effective Justice task force that has been established. 
I mentioned the major crimes task force, the nascent Afghan 
FBI.
    So this is going to be a very uphill fight that the 
Government of Afghanistan has to wage. I will make the point 
that President Karzai, in his inauguration speech, he did take 
this on. But actions are going to be required, Congresswoman.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I would just request, I will put it into a request for a 
question-for-the-record, but I would like a proof positive and 
definitive answer to that.
    The Chairman. Thank the gentlelady.
    Before I call on Mr. Jones, General, let me ask this. In 
previous conflicts, commanders have had limitations placed on 
them by civilian leaders. In Korea, for example, the President 
placed a limit of advanced American forces at the 38th 
parallel. In Vietnam, there were similar politically determined 
limits. Do you have any such limits in your efforts?
    General McChrystal. I am not aware of any limits. I 
certainly don't have any that I feel.
    The Chairman. Thank you very much.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    I want to thank you, gentlemen, for being here today, for 
your leadership to our Nation. And I represent the district 
where Camp Lejeune Marine base is located, and am very proud of 
all of our men and women in uniform, our Marines, too.
    Mr. Ambassador, I want to ask you a question. Several of my 
colleagues, both Ms. Sanchez and Mr. Bartlett, and in your 
comments, you talked about the Karzai government and knowing 
that there have been numerous articles written about the 
brother being a drug dealer, on the Central Intelligence Agency 
(CIA) payroll. What I want to know from a professional like 
yourself, how difficult is it to say to the Afghan people, 
trust your government? I mean, if they see us as propping up 
this corrupt government, try to help me understand just how 
difficult that is, or if it is not difficult, to say trust your 
government.
    Ambassador Eikenberry. Congressman, it is an extraordinary 
challenge. What is clear is that the Afghan people right now, 
that they have much greater expectations of their government, 
their ability to deliver basic services, the ability of their 
government to be accountable, the ability of their government 
to deliver predictable justice to them. And that is perhaps 
more acute in the areas of eastern and southern Afghanistan 
right now, where insecurity exists. And that is part of the 
cause for the reasons of insecurity.
    So it is absolutely central that the Government of 
Afghanistan address this. But it is an extraordinary challenge. 
We are talking about a country that had three decades of 
conflict; a country, because of those three decades of 
conflict, has literacy rates of 25 percent. We are talking 
about the complete collapse of institutions.
    But I will tell you I have served in Afghanistan since 
2002, and there has been progress that has been made. We don't 
want to overlook substantial progress that has been made. But 
what is going to be essential now over the next two years is 
that President Karzai's administration, in partnership with us, 
with the support of the international community, that they 
start to take stronger measures to become a more accountable 
government and that they do address seriously the problems of 
corruption that plague the society.
    Mr. Jones. Mr. Ambassador, thank you for that answer. You 
are a successful professional, and that is what gives the 
American people much concern, is that it is going to take a 
long time for this country to ever have a central government or 
to be a nation.
    We have a recession, a deep recession in this country, and 
this is a debate that I hope we will have on the floor of the 
House soon about the policy as it relates to Afghanistan.
    General McChrystal, what do you anticipate, once the 30,000 
Americans are on the ground in Afghanistan, as far as the 
insurgency? Do you anticipate this will fuel the insurgency, 
embolden them to come back out and really challenge to show 
their strength? I mean, I imagine that is probably a given, but 
I would like to hear you comment on that.
    General McChrystal. I believe they will try to do that. But 
I think that they are going to be challenged to do that. When 
they mass now in any significant numbers, they are defeated 
fairly quickly, with significant losses. So what I think they 
will do, and what we see them talking about doing is trying to 
maintain pressure, show a brave front against this, and 
continue to show the momentum that they believe that they have.
    I think, however, that they will end up using an increasing 
number of asymmetric tactics, suicide bombers, improvised 
explosive devices, and coercion of the population at night and 
things other than large-scale operations.
    Mr. Jones. General, let me ask you this, and this will be 
my last question, time is running out. If you needed to pursue 
the enemy, like during Vietnam they had a sanctuary, Laos, do 
you have the green light to go across the border in hot 
pursuit?
    General McChrystal. Sir, we have the ability to protect our 
forces with fire across the border, artillery and air fire, and 
we do that in coordination with our Pakistani partners. So we 
can pursue them to target them, and do that fairly routinely. 
But again, we coordinate that and have a series of procedures 
and process in place that allow us to do that.
    Mr. Jones. Mr. Chairman, I would like to ask that in the 
future, from time to time, if possible, that we would have 
classified briefings with men like General McChrystal and the 
ambassador.
    The Chairman. We, of course, have done that in the past. We 
will do our best in the future. Thank you.
    Mr. Jones. Thank you, sir.
    The Chairman. Thank you so much.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Good morning, General.
    Good morning, Ambassador. Thank you for your service.
    General, Ambassador, do you agree with the statement that 
there is not a robust Al Qaeda presence in Afghanistan today?
    General McChrystal. In terms of numbers, there is not a 
robust Al Qaeda presence. In terms of the ability, linkages to 
people like the Haqqani network and to the Quetta Shura Taliban 
through surrogates, in fact they do have significant linkage 
and influence.
    Mr. Andrews. In your written testimony, on page two, 
General, you say that our core goal of defeating Al Qaeda and 
preventing their return to Afghanistan. Return from where?
    General McChrystal. Sir, there are many locations. Their 
primary location in that area is Pakistan.
    Mr. Andrews. I thought you would say that. And what is the 
plan with respect then to Al Qaeda sanctuaries in Pakistan? Let 
me just play a devil's advocate question for a moment. It is 
not my view, but I hear it.
    There is a robust Al Qaeda presence, both quantitatively 
and qualitatively in Pakistan. So we are sending 30,000 more 
troops to Afghanistan. What are we doing to be aggressive in 
wiping out the Al Qaeda sanctuaries in Pakistan?
    General McChrystal. Sir, in my current position, I don't 
have direct responsibility for operations inside Pakistan, 
although I maintain close liaison.
    Based upon my background, I would tell you that the most 
effective long-term tactic against terrorism is governance. 
Where you establish effective governance with rule of law in an 
area, it is very difficult for terrorist groups to operate. So 
our strategic partnership with Pakistan and the Government of 
Pakistan I believe is the critical long-term way to help reduce 
Al Qaeda. And that is true in other locations.
    Mr. Andrews. Mr. Ambassador, what evidence is there that 
the Pakistanis are executing their part of the strategic 
partnership by aggressively going after Al Qaeda in the 
Federally Administered Tribal Areas (FATA)?
    Ambassador Eikenberry. Congressman, that is not my domain 
as the U.S. Ambassador to Afghanistan. We do have a very close, 
collaborative relationship with our United States embassy in 
Pakistan. The issues of security that we are talking about here 
today are inextricably linked, Afghanistan and Pakistan, but it 
wouldn't be for me to characterize the specifics of Pakistan's 
actions.
    Mr. Andrews. I appreciate that. And I think that Secretary 
Gates and Secretary Lew were pretty good on this. But I would 
just--some unsolicited advice here. The American people are not 
going to support the deployment of 30,000 people on a bank 
shot, on an indirect strategy to try to deal with a very direct 
problem. And I understand that the prevention of a reemergence 
of a sanctuary in Afghanistan has real value. But it is pretty 
clear to me that one of the central focal points of this 
mission is to help the Pakistani Government survive and help it 
gain its footing and its credibility. I do think we need to 
articulate that. I think that that is a very legitimate 
rationale. I think it is in our national interest to do so. But 
I think that if we omit that from our discussion, we are 
omitting an awfully important point here.
    And just one follow-up to Mr. Jones's question. General, 
you said that your orders permitted you to fire across the 
border, as I understand it. Would the force protection rules of 
engagement (ROE) permit you to pursue across the border if, in 
your judgment, force protection required that?
    General McChrystal. Sir, I would like to take that for the 
record so I can consult the specific rules of engagement.
    Mr. Andrews. I understand. If you were writing those rules 
of engagement, what would your recommendation be?
    General McChrystal. I would never take away, from American 
forces particularly, their ability to protect themselves. 
However, I would be very cautious in how I framed it and how I 
executed it because the sovereignty of Pakistan is as sacred as 
the sovereignty of any other country.
    Mr. Andrews. I appreciate that. I know even the question is 
provocative. And I do not mean to be provocative.
    Look, my hope is that the Taliban are degraded to the point 
where they are not a virulent force within Pakistan, that 
government can stabilize, they can execute their mission in the 
FATA, and we can get both sides of the border dealt with. I 
just would emphasize this is a bi-national problem. As a matter 
of fact, the Taliban would see it as their own sovereign nation 
in that area.
    Thank you, I yield back.
    The Chairman. I thank the gentleman. I also thank the 
gentleman for raising the issue of Pakistan. We are reminded 
that there is a classified briefing at three o'clock this 
afternoon, HVC-301. Admiral LeFever, top military officer in 
Pakistan, will be giving that briefing.
    Mr. Akin, the gentleman from Missouri.
    Mr. Akin. Thank you, Mr. Chairman.
    And General, I immediately agreed with your comments about 
the quality of the forces in Afghanistan. My son is over there 
at Camp Leatherneck. So I want an immediate support there. I 
would say that what I would like you to do, if you could do 
this fairly concisely, would be, what would you say your 
biggest three challenges are? I am looking more for titles than 
I am a long paragraph on each one.
    General McChrystal. Yes, sir. I think the number one is 
going to be the growth of the Afghan National Security Forces, 
both in size and quality. I think the second is going to be 
partnering with Ambassador Eikenberry and the Government of 
Afghanistan's team for governance. Because where we create 
security, it is not durable without governance. And then I 
think the last of course is probably just getting at the 
psychological aspects of the Afghan people as they are coerced 
by the insurgency. It plays into everything else, but 
convincing them is a critical task at hand.
    Mr. Akin. Thank you for making that concise. Your first 
point was the security forces, and that was going to be a 
question I wanted to ask more about. And that is, what would 
you say is the condition of the security forces in Afghanistan? 
We were on a committee with Chairman Snyder here, and we looked 
at the same thing in Iraq. And you have to build up and build. 
What is the status of the forces in general, if you can do it 
fairly quickly?
    General McChrystal. Yes, sir. Together, the Afghan National 
Security Forces are just about 190,000 people assigned or on 
the rolls right now. The Afghan National Army (ANA) is 
significantly ahead in terms of professionalization, capacity, 
than the Afghan National Police (ANP) because we started 
earlier. We started in 2002. At the battalion and company 
level, they fight pretty well. Organizationally, there is much 
development to do.
    The Afghan National Police have much further to go. The 
percentage of policemen who have actually received formal 
training is fairly low. We are increasing our partnership and 
our focus on them, but we are starting at a much lower level.
    The last point is the police, of course, have a tremendous 
challenge because they operate so dispersed. It is harder to 
have leadership and influence over that. But they also die in 
larger numbers than any other force on the battlefield 
fighting. So while we can be very critical, I think we also 
need to balance the fact that they are dying for their country 
pretty courageously.
    Mr. Akin. And the additional troops allow you to protect 
them better and to partner with them better.
    General McChrystal. That is actually the heart of the 
strategy, sir. Create more security, but do it shoulder to 
shoulder, partnering with the police and the army.
    Mr. Akin. Thank you very much, General.
    And Ambassador, a couple of questions. Thinking back a 
little bit from lessons from Afghanistan, do they have a 
constitution in Afghanistan--I mean from Iraq--do they have a 
constitution in Afghanistan now?
    Ambassador Eikenberry. Sir, they do. They have had a 
constitution----
    Mr. Akin. Could you pull your mike up a little higher 
again, please? Thank you.
    Ambassador Eikenberry. I am a slow learner here. They have 
had a constitution since 2004.
    Mr. Akin. And did we make the same mistake in that one to 
put sharia law into the constitution or not?
    Ambassador Eikenberry. Sharia law is recognized in the 
constitution, but it is not the dominant judicial system.
    Mr. Akin. That sounds like double-talk to me. If it is in 
the constitution----
    Ambassador Eikenberry. No, respect for Islamic law is in 
the constitution, Congressman. But it is locally interpreted.
    Mr. Akin. Locally understood. Okay.
    Corruption is something that a lot of people have been 
hitting on, that theme. Is corruption inevitable as long as we 
have the massive poppy crops that are--I have to say that 
carefully--over in Afghanistan?
    Ambassador Eikenberry. There is no question that the high 
level of poppy production and opium trade contributes to 
corruption.
    Mr. Akin. Is it possible for us to deal with the corruption 
problem as long as there is that major dependence on that 
supply of income?
    Ambassador Eikenberry. It will be difficult, but there is 
progress that is being made against narcotrafficking. 
Congressman, last year, there was about a 20 percent reduction 
that occurred countrywide in poppy production. And last year, 
the number of poppy-free provinces of Afghanistan went from 18 
to 20 out of 34 provinces of Afghanistan. There could be 
reverses from that promising development last year, but there 
is a comprehensive effort that is being waged by the Government 
of Afghanistan, supported both by our civilian side, especially 
in the area of law enforcement, with agricultural programs and 
the military.
    Mr. Akin. Thank you.
    Last thing is, have you been paying attention to governance 
from the bottom up? Sometimes I think we start it too much from 
the top down.
    Ambassador Eikenberry. Congressman, that is a very serious 
problem. And I would agree with you. I would characterize our 
first several years in Afghanistan as focusing at the national 
level. Our new strategy does call for emphasis at the 
subnational level in very direct support and in close 
coordination with our military and their efforts out in the 
field.
    Mr. Akin. Thank you.
    The Chairman. Thank the gentleman.
    The gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to both of you. General, Ambassador, thank 
you so much for your service.
    I appreciate, General, your mentioning the men and women 
who are serving and I think particularly their families. I 
continue to think that we are still a military at war, not a 
nation at war. And quite frankly, I am not sure that we are 
trying to address that problem. We talked about the credibility 
of the Afghan Government to their own people. And we mentioned, 
you know, many times about the corruption.
    And I want to just focus on our role for a second. Mr. 
Ambassador, are we supporting leaders who in fact are fuelling 
the insurgency in many ways? We give a great deal of resources 
to the ministries. You mentioned certifying the industries. But 
I want to know whether the Congress has a role in trying to 
condition some of that support further and the extent to which 
we could be playing a more significant role.
    Ambassador Eikenberry. Well, as you know, Congressman, you 
do play one very significant role in that you have the 
responsibility for the Special Investigation for Afghanistan 
Reconstruction, the group called SIGAR, which is a very robust 
auditing and investigation arm that reports directly to the 
United States Congress. Indeed, in Afghanistan today, at our 
United States embassy mission, we have over 30 from SIGAR that 
are assigned. And they are very busy, working in close 
partnership with us, to rigorously audit and investigate the 
spending of our money. So, yes, you are playing a very vital 
role.
    And as we move forward in Afghanistan, we have many very 
progressive, good Afghan ministers right now that like to 
condition developmental aid in ways that help them to work with 
their own parliament, with very stringent standards being set.
    Mrs. Davis. I think I am looking for ways that this really 
translates to the Afghan people, though, the extent to which 
they see that we are actually doing something about that and 
that some of these leaders are not really acting in their best 
interests. How are we communicating that then? It is critical 
that they begin to see that change.
    Ambassador Eikenberry. Well, again, I think that President 
Karzai, as he laid out in his inauguration speech, he has a 
program for reform. He is emphasizing accountability. And I am 
cautiously optimistic at this point about our ability over the 
next year, over the next two years, to increasingly work in 
partnership with the Afghan Government to achieve the goals and 
objectives that you have articulated.
    Mrs. Davis. Thank you.
    I know this is progressive and it doesn't happen on a dime, 
but I also believe that there may be a time at which we see 
that the metrics of the work that SIGAR is doing would indicate 
to us that things are not progressing in the way that they 
should. And I look to you and I look to the General as well to 
be able to say that, you know, we see some real problems here, 
and if this continues on a trajectory like it has been, we 
can't get to where we want to go. I mean, it is a bridge too 
far.
    Ambassador Eikenberry. No, the challenges are daunting for 
government accountability right now. We have an array of 
programs in the area of law enforcement and civil 
administration to work with the Afghans in partnership. But it 
is going to be, as General McChrystal had said, it is perhaps 
our most difficult task given what our starting point was back 
in 2001.
    Mrs. Davis. General, as you work with the troops and 
certainly to develop the Afghan police in a different way than 
we have been working on for the last number of years, we know 
that we are very dependent on tribal leaders to encourage their 
men to join with the forces, and yet we also know that the 
attrition rates are very high, that there are multiple, 
multiple problems in doing that. So what are going to be your 
indicators that in fact you are moving in a progressive way? 
Where would you like to be in three months and six months? 
Because this has got to happen soon.
    General McChrystal. It will happen at different rates in 
different areas. But if we pick an area like the Helmand River 
Valley, where we are very focused, what we would like to do is 
increase the number or percentage of trainees that have had 
training at all. Then, once we put them through that training, 
we partner with them. So we have elements that are with them 
literally all the time, 24-7.
    That gives us two things. One, it gives us an ability to 
help build their professionalism, but it also gives us a 
constant window into their level of professionalism. And it is 
somewhat a deterrent as well against things like corruption and 
misbehavior because they are partnered with us. What I want to 
get to is where the Afghan villagers, the people in the local 
area, assign credibility in their mind to the Afghan police. 
That is the most important metric, more so than their ability 
to go after crime. They will provide security. But it is do the 
people view them as the credible----
    Mrs. Davis. And if the answer to that question is no, this 
is not happening, then what?
    General McChrystal. We just keep working through that. At 
the end of the day, the Afghan National Police must be viewed 
with credibility by the local people. It will never be perfect, 
but we have to get to that.
    Mrs. Davis. Thank you.
    The Chairman. Thank the gentlelady.
    Before calling on Mr. Forbes, very quickly, General, given 
the mission the President has assigned to you, are you 
convinced that the forces provided to you are adequate?
    General McChrystal. Mr. Chairman, I am convinced.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And General, thank you for your patience in answering our 
questions. I am going to try to bring to my questions the three 
attributes that we should have: transparency, determination, 
and humility. And you responded to the ranking member earlier 
that you thought it was your responsibility to provide your 
best military advice. And I assume that means to us as well, to 
the Armed Services Committee.
    Here is the core of what every member of this committee 
needs to know and the American people need to know: In your 
experience, in your best military advice, should we send 30,000 
additional troops to Afghanistan or a number greater than 
30,000? Not what you requested, not what were in documents, not 
what the President ordered, in your best military advice.
    General McChrystal. In my best military advice, this is the 
right decision. The additional coalition forces that I expect 
will be helpful as well. But I believe that this is the right--
--
    Mr. Forbes. So you believe 30,000 would be the right 
number?
    General McChrystal. Of U.S. forces, yes, sir.
    Mr. Forbes. How many total troops? More than 30,000?
    General McChrystal. I think we are going to end up with 
about 37,000, although it is absolutely unclear--or it is a 
little bit unclear at this point.
    Mr. Forbes. On Thursday of last week, the Chairman of the 
Joint Chiefs of Staff sat where you sat, and he indicated that 
you had received everything that you requested. According to 
military doctrine, normally that formal request for troops, as 
I understand it, would go from you to the combatant commander, 
which would have been General Petraeus, to the Chairman of the 
Joint Chiefs of Staff, and then to the President. Is that a 
fair representation?
    General McChrystal. That is correct.
    Mr. Forbes. And was the chairman correct that you received 
everything you requested?
    General McChrystal. That is correct.
    Mr. Forbes. During the period of time that you have served 
in Afghanistan, from 2002 on, has there ever been a time under 
that chain of command, with that request going through like 
that, that you have not received what you requested?
    General McChrystal. I have never been in the position where 
I requested before. So it would be misleading for me. The force 
that I had was completely resourced.
    Mr. Forbes. So you had never made a request that you hadn't 
gotten. So if I had said, during the entire time you have been 
in Afghanistan, you received everything you requested, that 
would technically be correct?
    General McChrystal. That would be correct.
    Mr. Forbes. And earlier today, the chairman asked you a 
question. He said, will you be successful in your mission? And 
you answered, yes, you would. From 2002 on, for every command 
that you had in Afghanistan, if I had ever asked you if you 
would be successful in your mission, was there ever a time that 
you would have publicly said, no, you would not have been 
successful in that mission?
    General McChrystal. No, there is not. But I was in a fairly 
narrow part of the world. We were successful.
    Mr. Forbes. You would never have said, no, we are not going 
to be successful.
    General McChrystal. No, I would not.
    Mr. Forbes. The final question I would like to ask you is 
you believe that the Afghanistan war is a war of necessity, do 
you not?
    General McChrystal. I do, sir.
    Mr. Forbes. If it is a war of necessity, then I would like 
to follow up on a point that was raised a little bit earlier. 
If it is a war of necessity, then I would think by definition 
we have to win it. Is that a fair assessment?
    General McChrystal. I believe it is important that we be 
successful, yes, sir.
    Mr. Forbes. Then if it is crucial that we have to win it 
because it is a war of necessity, how can we say that, in 18 
months, if we need more troops, we are not going to require 
more troops; we are going to automatically begin to draw down 
our numbers if in fact we need more troops to win this war of 
necessity?
    General McChrystal. Sir, let me give you a context on this. 
First, I don't believe that we are going to need more forces in 
18 months. But I would provide my best military advice on the 
conditions at any point, either at the 18 months or not, no 
matter how painful it might be.
    Mr. Forbes. And General, I have complete confidence in your 
integrity. I know you would do that. My point is not with you. 
My point is, as a Nation, how can we say, if this is a war of 
necessity, that we will guarantee we are going to begin 
withdrawing troops in 18 months if we have to win it and if in 
17 months we determine that we have got to have more troops to 
win this war?
    General McChrystal. Sir, I believe the key point here is 
really the long-term strategic partnership with Afghanistan 
which the President has outlined. So I think that underpins 
everything.
    Mr. Forbes. And General, just one last shot at this for my 
determination part of the three attributes that you asked us to 
have, wouldn't it be fair to say that, as a Nation, if we have 
determined that this is a war of necessity and if in 17 months 
or 13 months or whenever that period of time comes, we 
determine as a Nation that we have got to have more troops to 
win this war, that we have got to put more troops in there to 
win this war of necessity?
    General McChrystal. Sir, what I can guarantee you is I will 
give my best military advice. And I would think that the Nation 
has to make decisions then based upon a much wider context.
    Mr. Forbes. Thank you, General.
    The Chairman. Thank the gentleman.
    The gentleman from Georgia, Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Thank you both for your service. I think we have got a 
great team there, and for all the service of all those you 
lead.
    I am going to continue my lobbying campaign, Provincial 
Reconstruction Teams, changing the name to Provincial 
Development Centers, something like that. Have an Afghan face 
on this as quickly as possible. We should have done that 
already. Shame on us for having not figured this out five or 
six or seven years ago. Have an Afghan PDC university.
    And it is interesting when I talk with you, General 
McChrystal, you agree.
    When I talk with you, Ambassador Eikenberry, you agree on 
this point.
    If the two of you could just get together and make it 
happen, that would be I think helpful to the entire cause. I 
don't envy your balancing act with sophisticated characters, 
the ones that this may--you know, the 2011 date might have a 
forcing function with. Presumably, they will be listening to 
our counter-information operation focused on the 
unsophisticated characters that we need to persuade, hey, look, 
you need to jump on our side of the fence here, or at least get 
off the fence and help us out during the next year-and-a-half.
    Clearly, the Taliban are going to be emphasizing 2011, July 
2011. And you know, we have talked enough about that. But that 
is really--you have got quite a challenge here when you think 
about the different characters that you are trying to persuade 
with regard to two different objectives.
    In Vietnam, as far as I can determine, about the only 
really successful thing that we had going for us was the 
village pacification program. Just about everything else we 
tried didn't work very well. And then we screwed that up by 
moving the folks who were very effective at guarding their own 
villages, having help from Special Forces teams, we tried to 
move them into more conventional forces and move them to 
different parts of the country, and then they just didn't want 
to fight there.
    We have really struggled with the Afghan National Army. It 
is really very visible. It is pretty easy for the Taliban to 
avoid them, just like it is easy for the Taliban to avoid us. 
What we really need are people who kind of look--well, we need 
the one-eyed bearded guy that Roscoe Bartlett was referring to 
looking out for us and our interests in the rural areas. And it 
seems to me that the people who would come to him and say, 
``Look, you better not be helping the Americans because when 
they leave, we are going to cut your head off,'' he would like 
to be in a position to say, ``Oh, really?'' Well, here is the 
way it is going to work. Before they leave, I am going to cut 
your head off. So I won't have to worry about you showing up 
after they leave. And that is the kind of almost vigilante 
justice that occurs in rural areas of Afghanistan, and it has 
for centuries.
    Now, General McChrystal, the central aspect of your new 
campaign is to empower local defense groups and local 
communities, and strengthening those local communities. And yet 
you have this national concept at the same time. So there is a 
clash here. And then, as far as the local folks are concerned, 
a lot of them are going to want to treat the enemy exactly as I 
just described. You help the Taliban, I am going to kill you. 
No questions asked. I am just going to do that. There is not 
going to be a trial. If there is, it is the Law West of the 
Pecos; son, first, we are going to give you a fair trial, and 
then we are going to hang you.
    How do you, how do we, how does America fit in there when 
you have got the national government, the local folks, and the 
local folks not interested in abiding by our concepts about how 
to go about doing this?
    General McChrystal. Yes, sir. I will start on that. What we 
have got to get to is Afghan responsibility for their security. 
And when I say responsibility, it has got many facets to it. 
They absolutely have a tradition of local security, denying 
their area to outsiders of any kind. And I think that we need 
to reinforce that, and we need to support that where we can.
    We need to balance that with great caution against a 
tradition that is much newer but much hated in Afghanistan, of 
warlords and militias. And so on the one hand, you have a local 
security tradition. On the other hand, for about the last 20 
years, groups have come up under warlords that have been 
predatory, and are much hated by the people, and took part in 
the civil war. So we have got to make sure that we don't either 
let reality or perception of those two work against each other. 
So as I say, with caution as we go forward.
    And we are working programs that you are familiar with, 
Congressman, to try to build at local levels. And we are having 
some success there with our Afghan partners, government, and 
local elements. There are other parts of shared responsibility 
that are wider than just security forces that might carry 
weapons. It is also elders not allowing the young men to join 
the Taliban. Also people turning in information on improvised 
explosive device locations, or just telling Taliban, you can do 
IEDs, but you can't do them in our neighborhood.
    As that grows out, that is the kind of confidence. The 
locals would like do that, but they lack the confidence right 
now. It is like a neighborhood that has been intimidated. So we 
have got to do a balance of a very credible national force, and 
there must be an Afghan National Army and police with a strong 
neighborhood fabric that is part local security and part just 
governance, neighborhood watch and trust for each other.
    The Chairman. Thank the gentleman.
    The gentleman from Florida, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    General McChrystal, welcome, sir. And in your opening 
statement, you made a comment about defeating Al Qaeda. And 
then in the same line you said you must disrupt and degrade the 
Taliban's capacity. Could you explain for us the difference 
between defeating Al Qaeda and degrading the Taliban?
    General McChrystal. Certainly. I believe that it is U.S. 
policy, and I believe it is an important objective that Al 
Qaeda be defeated. And that means, over time, wherever they are 
around the world, they must be prevented from being a threat 
against either the United States or our allies. I think that 
will take many years, and it won't be just an American effort; 
it will be all of our partners. But where they are, I believe 
Al Qaeda both as an organization and as an ideology needs to be 
defeated. And that will require a lot of Muslim nation partners 
as well.
    In terms of Taliban, what I think we need to do there, sir, 
is--and we had an extensive discussion about that term defeat--
I think what we are doing is preventing the Taliban, I am 
sorry, preventing the Taliban from being an existential threat 
to the Government of Afghanistan and thus to the Afghan people. 
So rather than wipe out every Taliban member, what we need to 
do is lower their capacity to the point where, within their own 
means, Afghanistan can hold them from being a major threat to 
either their way of life or their government. And I think over 
time that will cause the Taliban to go away, to become 
irrelevant, and cease to exist.
    Mr. Miller. So we do intend to defeat the Taliban?
    General McChrystal. Sir, the military term, in fact without 
parsing that too tightly, we intend to prevent them from doing 
what they want to do.
    Mr. Miller. Thank you, sir.
    And also following up, you described in your assessment as 
an initial assessment, and that you would write a second 
assessment. Do you intend to provide Congress a copy of that 
second assessment?
    General McChrystal. I have not been tasked to write a 
written assessment in that same form, but I understand from my 
secretary, I will provide an assessment next December. So I 
don't know the form yet of that, format of that, but it will be 
clearly an exhaustive--a complete assessment.
    Mr. Miller. Ambassador Eikenberry, do you think we have 
enough civilians working now? It seems like an awful small 
number when you are talking about 100,000 troops, and we have 
less than a thousand civilians out there right now. And there 
were press reports earlier that said State Department employers 
were in fact refusing to go. And I know we can't compel, but 
that they were refusing to deploy to Afghanistan. It is 
happening awful slow. And we have been hearing this now for 
eight years that we need to bring people in to augment, if you 
will the troops with civilians.
    Ambassador Eikenberry. Well, Congressman, as you know, we 
are not trying to match military numbers right now. It is not 
about how many; it is what effects do they get. When you talk 
about--on the other hand, when you talk about the growth of our 
civilian presence in Afghanistan, I have to tell you it has 
been extraordinary. The military organizes with units like 
companies and battalions and brigades and they deploy large 
units. When we are talking about individuals, when we are 
talking about civilians, we are talking about an individual 
agricultural specialist. We are talking about an individual 
from the Federal Bureau of Investigation.
    So, against that, now, if we do look at the build up of 
civilians that have occurred over the past 12 months or soon by 
the end of January of next year, over a 12-month period, we 
will have a threefold increase of civilians on the ground in 
Afghanistan. By military standards, a threefold increase is 
extraordinary, and it is even more extraordinary for civilians.
    Do we have enough on the ground right now for the present 
mission that we have by the end of January? We will have what 
is needed. We will have to grow further now with the decision 
that the President has made for the strategy of where we have 
30,000 more troops coming in. That will mean that we will have 
additional requirements out in the field and we meet those.
    But if I could give one example.
    Mr. Miller. I wish I could, sir, I am running out of time. 
I think it is important in context, sir, you talk about a 
threefold increase, that is only to 970-plus. It is not that 
large of an increase. If we need civilians to get in there, we 
need civilians to get in there.
    Ambassador Eikenberry. Congressman if I could, let me give 
you an example of civilian effects that we are achieving. Right 
now, in Helmand Province, where General McChrystal's forces are 
operating, in one district in Helmand Province, we have one 
agricultural expert that is operating there. He is leveraging 
then an organization of several hundred Afghans who are 
implementing, and they are providing then for the voucher 
program of agricultural assistance for some 14,000 Afghan 
farmers. I want to emphasize that one well-placed civilian in 
Afghanistan gets tremendous effects. We are not talking about 
the need for tens of thousands civilians.
    The Chairman. I thank the gentleman.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    I just want to ask both of you, or in particular, the 
Ambassador, about agriculture. A fact sheet released by the 
White House last Tuesday states, ``Our top reconstruction 
priority is implementing a civilian military agriculture 
redevelopment strategy to restore Afghanistan's once vibrant 
agriculture sector.''
    Now having visited one of the National Guard's agriculture 
development teams in July when I was last there and saw you, 
and thank you very much for hosting our delegation, I believe 
that redefining and growing an Afghan economy will be key to 
stabilizing the country and eventually allowing our troops to 
come home. Does the President's strategy entail an expansion of 
the number and the location of these ADTs, these agricultural 
development teams?
    Ambassador Eikenberry. Congressman, I would like to get 
back with you on that. I am not sure what the projected growth 
of the agricultural development teams are.
    I will say, on the Department of Agriculture front, though, 
there is a very substantial increase that is going on. We 
started with very few on the ground this year, and over the 
course of the next several months, we will have about 65 
Department of Agriculture experts: five working in the ministry 
of agriculture, and all the rest deployed out in the field in 
line with General McChrystal's forces.
    Mr. Loebsack. It is about 65 then because the number I had 
was 60? As far as you know, there is no projection to go beyond 
that 65 any time soon or even into the next year?
    Ambassador Eikenberry. We will reassess that, Congressman. 
That is a very impressive delivery from the Department of 
Agriculture (USDA). They will get great effects. I know 
traveling around, when I am out with the military, if you ask 
commanders throughout Afghanistan and ask them what they can 
use more of, sometimes they will say they can use agricultural 
expertise before they can use more military forces.
    Mr. Loebsack. I was there, as you know, with Congressman 
Ellsworth from Indiana, and Joe Donnelly from Indiana; the 
Indiana National Guard, we are doing a fantastic job out in the 
east when we were visiting at that time. I am hopeful that the 
Iowa National Guard may be able to stand up something like this 
as well. Obviously with Secretary Vilsack at the helm at USDA, 
I have a lot of confidence in his ability. I know you have 
spoken with him about this; is that correct?
    Ambassador Eikenberry. Sir, I just spoke with him 
yesterday, and he is extraordinarily supportive of these 
efforts, and we are hoping that he will be making a trip out to 
Afghanistan here in January. With 80 percent of the Afghan 
economy tied to agriculture, if we are going to make a dent in 
possible insurgent recruits, if we are going to get after this 
narcotrafficking problem, if Afghanistan is going to have long-
term economic sustainability, agriculture is key. And that is 
really our focus.
    Mr. Loebsack. I agree, thank you.
    General McChrystal, obviously, there is a security 
component to this as well. Obviously these ADTs and other 
civilian projects will be linked closely to military action, so 
as security is gained, the ADT, and PRTs, which I think also is 
a misnomer, by the way--I would agree with my colleague from 
Georgia--and other development stabilization projects follow 
close behind to help this whole build and transfer strategy 
that we are talking about. Can you elaborate a little bit on 
that, the intersection of security and agriculture development?
    General McChrystal. Absolutely. In fact, they follow in 
time very closely behind security, but they actually increase 
security. Once you increase agriculture in most cases, but also 
any kind of employment, what you do is you take fighters off 
the battlefield or you take potential fighters off because 
unemployment is the biggest recruiter for the Taliban right 
now. So the ability to get back the fabric of life, when people 
have something to lose, they are much less interested in having 
insecurity in their area, so it is what makes security durable.
    Mr. Loebsack. Thanks to both of you.
    In my remaining time, I guess I just want to make a comment 
about the Pakistan connection here because obviously I am still 
a little bit confused as to what our strategy entails with 
respect to Pakistan. I understand there is only so much that 
can be said in open session, and I look forward to the hearing, 
and I thank the Chair for that this afternoon at three o'clock. 
But I have a lot of the same concerns about Pakistan, I should 
say, that my colleagues do on both sides of the aisle. And 
specifically, how it is the case that in the near term and 
going forward, our strategy is going to deal with the problems 
of Pakistan?
    I understand entirely the sovereignty issue. Obviously, 
Pakistan is a sovereign state, just like the United States is. 
We have to be careful about our cross-border operations, but at 
the same time, if we are really looking for a long-term 
solution, Pakistan is going to be absolutely critical. Thank 
you for your time.
    The Chairman. I thank the gentleman.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you General, Ambassador, for being here today. I 
also want to thank you for your hospitality and briefings as I 
was with you in August. I am very grateful to be the co-chair 
of the Afghan Caucus, and so I have a particular appreciation 
of your commitment.
    I am also very grateful, my former National Guard Unit, 
218th Brigade, served 2007-2008, for a year. General Bob 
Livingston training the Afghan police and army units; it was 
the largest deployment from our State, 1,600 troops, since 
World War II.
    And, General, I agree with you that the persons who served 
there are very grateful and proud of their service, and they 
developed a great bond with the people of Afghanistan and 
identified them as Afghan brothers.
    I also have another identification with the two of you. I 
began my military career in the 1970s, and I believe, just as 
both of you have stated, that we have the best troops ever. I 
know this first-hand visiting Fort Jackson. I represent Parris 
Island Marine Corps station, Beaufort Naval Hospital. And then 
I am also grateful I have four sons currently serving in the 
military. And so these truly are the best troops ever, and we 
want to back you up in every way we can with equipment and 
support. And I am honored to serve with Susan Davis on Military 
Personnel to back up families.
    General, the President has said July 2011 is when the U.S. 
troops will begin to redeploy out of Afghanistan. Is this a 
conditions-based target? Will it be adjusted if the Afghan 
security forces or Afghan government is not ready? Is the 
process conditions-based? And what are those conditions?
    General McChrystal. Sir, I view it is a solid decision the 
President has made, and I operate under the assumption that we 
will begin to decrease our forces beginning in July 2011. But I 
do that in the context that the President has also provided the 
people of Afghanistan a long-term strategic partnership, a 
guarantee that we are going to be partners with them over the 
long haul and help them continue to protect their security and 
their sovereignty.
    I think that, while everything is conditions-based, I think 
it will be informed by conditions. We are about to put 30,000 
more Americans and additional coalition forces and go hard at 
this insurgency over the next 18 months between now and June 
2011. My expectation is the insurgency will be less robust in 
the summer of 2011, significantly so. And it is also my 
expectation that the Afghan National Security Forces will be 
more robust. They will still be imperfect, but they will be 
more robust, along with some improvements in governance and 
development and whatnot.
    So I think I see confidently in the summer of 2011, that 
beginning the reduction of forces will be appropriate. The pace 
and scope of which I think needs to be conditions-based, and I 
think it goes back to how strong is the insurgency at that 
point? What is the pace we have seen in the growth of 
Afghanistan's ability to provide for their own support? And 
then I think the last one is the minds of the Afghan people. At 
that point I hope to have convinced the Afghan people, not 
myself, but this effort, I hope will have convinced the Afghan 
people that their government is going to be successful here, 
and they will then make the decisions that increase their 
support.
    Mr. Wilson. Thank you very much.
    And Ambassador, you have identified and with your 
background in the military and also now serving as ambassador, 
you say that there is progress in Afghanistan. Can you tell us 
about roads, schools, medical access, and cell phone usage?
    Ambassador Eikenberry. Yeah, in many of those areas you 
have pointed to, and we can go beyond, Congressman, indeed, 
there has been extraordinary progress. Take education, in the 
dark years of 2001, there was only a million children in 
Afghanistan going to school, and they were all boys. And they 
had a certain type of education that they were being delivered. 
Now there is about 6.5 million children going to school, and 
about 35 percent of those are women.
    We have gone from very little access in 2001 to health 
care, and that has been extended now, basic health care, to 
about 80 percent of the country. We could go on.
    These are areas of great socioeconomic progress. It should 
give us confidence that if we get the proper strategy, that we 
have things to build upon, and I do believe that we have got 
the proper strategy right now.
    Mr. Wilson. It has been reported there are no roads in 
Afghanistan. Of course, I have seen the paved roads. Can you 
tell us the level of success there?
    Ambassador Eikenberry. Yeah, there has been great progress 
that has been made. There are several thousand kilometers of 
paved roads. One of the areas we are emphasizing in our--the 
agricultural program is putting a lot of effort into farm-to-
market roads. And so, yes, there has been great progress in 
developing the transportation infrastructure of Afghanistan 
over the last several years.
    Mr. Wilson. Thank you.
    The Chairman. I thank the gentleman.
    Before calling the gentleman from Pennsylvania, General 
McChrystal, very briefly, can you identify the officers seated 
behind you.
    General McChrystal. Sir, these are members of my staff. Of 
course you have got Bill Rafferty from the United Kingdom (UK). 
To his right, I have got our communications officer, Rear 
Admiral Greg Smith. I have got one of my two aides, a German 
officer, and then my executive officer, Colonel Charlie Flynn.
    The Chairman. Thank you.
    Mr. Sestak.
    Mr. Sestak. General McChrystal, when you answered some 
questions from Representative McKeon, you talked about your 
force planning and assessment of criteria and continually doing 
so. When General--when President Obama, as Commander-in-Chief, 
stated in March that our real goal here was Al Qaeda in 
Pakistan, and then one of his three objectives was our 
partnership with Pakistan; as you came up with your forces, was 
that part of the benchmarks for determining the proper number 
of troops?
    General McChrystal. Most of our assessment was, for forces, 
was what we recommended for inside Afghanistan to create 
conditions that would be complimentary to progress inside 
Pakistan. So I think I am answering your question here. We did 
not shape our forces for anything inside Pakistan.
    Mr. Sestak. So the 35,000 Taliban that are in Pakistan were 
not part of your assessment of how many troops you might need 
to take care of those key population centers, even though the 
border is not recognized?
    General McChrystal. Not for operations inside Pakistan. The 
forces we need inside Afghanistan were, however, informed by 
conditions as we assessed them inside Pakistan.
    Mr. Sestak. In a sense, then, your benchmarks are ones 
that, as you assess what troops you need, then what the 
military prowess is of the Pakistani counterinsurgency effort 
and whether the adversary flows back and forth are part of your 
benchmarks for determining as we go forward success or an 
alternative approach or less or more troops?
    General McChrystal. They are absolutely considerations, 
factors that we will take in terms of the relative strength of 
the enemy and what we need do.
    Mr. Sestak. And were they part of your assessment?
    General McChrystal. They were, sir.
    Mr. Sestak. Are those benchmarks available? The President 
had promised in March that we would have benchmarks. We got a 
draft that was considered inadequate in a number of people's 
minds in September. So you do have these benchmarks by which 
you determined for that objective, which he said is our overall 
objective, the Al Qaeda, and to leave Afghanistan inhospitable, 
that they might not come back there. So you have those 
available, I gather, in a classified form?
    General McChrystal. No, I want to make sure I use the terms 
correctly here because when I talk about the factors, the 
relative strength, those are considerations in our planning. 
Benchmarks is the term, would be metrics that we take to 
measure the situation. They are not dissimilar, but----
    Mr. Sestak. You have benchmarks by which you are going to 
measure your progress with the 30,000 additional troops that 
take into consideration his overall objective, which is Al 
Qaeda, and however those considerations are, getting the 
Taliban on the other side, flowing back and forth, do you have 
the metrics for that?
    General McChrystal. We have a lot of metrics. We are still 
refining them into what I would call mature benchmarks.
    Mr. Sestak. But they were good enough to come up with the 
amount of troops you had?
    General McChrystal. They were.
    Mr. Sestak. Mr. Ambassador, when you were here back in 
2007, you testified that Iran worked towards similar objectives 
as we do in Afghanistan. They didn't want the Sunni Taliban 
there--Al Qaeda there. They wanted stability. They put money in 
roads. What is your assessment today, three years later?
    Ambassador Eikenberry. On specific intelligence, I would 
defer to General McChrystal. But let me say, at a broader 
strategic level, yes, Iran I would characterize in general its 
policies with Afghanistan as one where they are certainly not 
trying to cause instability throughout the country, indeed a 
return of the Sunni Salafist regime to Afghanistan they would 
look at it and obviously it is against their security interest 
and they probably have shared interest as well in trying to 
deal with the massive narcotrafficking problem that afflicts 
their own society.
    Mr. Sestak. When you both joined up there in Vietnam, we 
had 5,000 USAID personnel and 7,500 including contractors and 
others in Vietnam, and you have about 300 or 400 today. My 
question is that the Department of Defense in the past, since 
2007, has cut its Overseas Development Assistance (ODA) funding 
from 16 percent of overall ODA to about 9 percent. Has that 
money moved into the Defense procurement or have you seen any 
of it flow over to you in order to do this civilian surge and 
the monies attendant to making it happen? It is about $1.5 
billion. Have you seen that?
    Ambassador Eikenberry. Congressman, I am not aware of, in 
terms of accounts from Department of Defense to Department of 
State. What I would tell you now is that I am very satisfied 
with the development budget that we have. I have put in a 
request for additional development funds, and that is being 
looked at right now, but I am comfortable with the level of 
development assistance that we are providing to Afghanistan and 
I am very comfortable with the build up of civilians that we 
have on the ground.
    The Chairman. I thank the gentleman.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    And General McChrystal and Ambassador Eikenberry, thank you 
for being here. Thank you for your service and helping us 
better understand what is happening.
    I want to go back to the idea that we have talked about a 
little bit; the Afghan population, General, you said a few 
minutes ago in response to one of my colleagues, that it was 
your hope that within a relatively short period of time, you 
would be able to convince them that this was the right move on 
their behalf and that they would be with us.
    But aren't there big question marks when we have got a 
timeline in place with how the Afghan people are going to react 
when there is such a threat of violence from Al Qaeda and 
Taliban that are coming into these small villages, you know, 
taking names? How are we going to convince them that we are 
this long-term commitment that you mentioned--it seems to me 
there is some ambiguity here, and there needs to be clarity for 
the people of Afghanistan to understand our commitment and 
translate that into their support for us. Can you comment on 
that?
    General McChrystal. Sir, most importantly, they are going 
to judge us by our actions. And as we go down into areas where 
we have recently secured, the question back to us is always, 
are you going to stay this time? And when we respond, the 
Marines are asked this all the time, we would say yes, we are. 
Sometimes they will come back and say to us, but you didn't 
last time. And so what they are really judging is not our 
rhetoric but our performance in staying. We do have a deficit 
of trust from that standpoint to make up because they know that 
the Taliban can be trusted to at least make an effort to come 
back and coerce.
    What I think we need--this is a serious challenge, sir, but 
I think what we need to stress is, one, the effects that we 
will have with the increase in forces that we have, but more 
importantly the long-term partnership. That is really what they 
want. Even down at the lowest level and villages, they are 
looking for long-term predictability in their lives and a long-
term partnership with people who will help them and us to help 
their government. So I think we should not be--I think we 
should contest enemy propaganda about timelines, but we should 
stress really the timeline that we are on is helping them in 
the long-term partnership.
    Mr. LoBiondo. Well, I appreciate that. I still think there 
are some gaps in connecting the dots between what the Afghan 
people are hearing and understanding, and considering their 
apprehension about our leaving and now hearing these things 
about 2011 that why shouldn't the enemy sit on their hands and 
then after the deadline ratchet up?
    And I wish you all the success in the world, and we hope 
that that comes together. But in the next couple of months do 
you expect you are going to be able to have an ability to 
better explain this to the Afghan people so that they are more 
on your side because it seems like they don't depend on their 
own government?
    General McChrystal. This is a challenge, but working with 
their government, I think we can do a number of things. One of 
which is, they don't--they want a partnership. They want 
assurance from us, but they don't want us to stay forever. They 
don't want foreigners in their country. So, in many ways, the 
guarantee that we the coalition will support them but not stay 
too long is actually a positive as well.
    So what we have got to convince them is, we are going to 
help their government and their forces create conditions of 
security that will be reassuring and stable enough for them, 
and we will have a long-term partnership with them that will 
make them feel comfortable and move in that direction. But I do 
go back; we have to prove that with our actions, not with just 
our words.
    Mr. LoBiondo. Lastly, back to Pakistan for a minute, I 
think it has been widely acknowledged that no matter how good 
we are doing, that if the Pakistanis don't step up to the 
plate, we have a real problem on our hands. I am assuming there 
is a renewed intensive effort to convince them to do more than 
they have done before, because we have only gotten rhetoric out 
of them in many cases.
    General McChrystal. Sir, I think their recent actions over 
the last year or two against their own internal insurgency are 
really a good indicator of just how serious they are about 
conducting counterinsurgency operations and reducing 
instability on their side.
    I think that also Pakistani leadership shares with us an 
understanding that instability on either side of Durand line 
threatens the other. So I don't believe either Afghanistan or 
Pakistan can you fully table or secure over the long haul if 
the other isn't. I think that gives them shared strategic 
objectives.
    Ambassador Eikenberry. If I can add.
    The Chairman. The gentlelady from Maine, Ms. Pingree.
    Ms. Pingree. Thank you very much for your testimony.
    The Chairman. Turn your microphone on, please.
    Ms. Pingree. Thank you both for your testimony today. I 
certainly appreciate all you have had to say.
    I am probably one of the members of the committee who has 
deep reservations about the President's suggestion and 
proposal, and so let me take that perspective.
    I do want to thank you for your comments about our troops. 
I think that our troops are excellent. They are skilled, and 
they are highly dedicated. From the State of Maine, we have 
deployed about half of our National Guard, so we are very well 
aware of their skills, the capabilities that they bring. As you 
say, the citizen soldiers being added to the mix, they add a 
lot, and they also have made tremendous sacrifices and their 
families have as well. In our State, it has had a huge impact 
on the number that have been deployed.
    I do also want to say that while I understand the 
importance of you advocating for your mission before Congress, 
I as a Member of Congress, respecting the concerns of my own 
State, also worry overall about the long-term costs and lives 
and particular the costs financially to this country, the 
increase in the deficit, and the great need during this 
recession to provide some of very assistance we are providing 
across the globe here at home. So I balance these concerns 
overall, not just in the mission before us.
    I do want to say, I look over the troop levels for last 
four years, I see two things: I see a steady increase over time 
in the number of American troops on the ground, and second, I 
think we can all agree that part of the reason we are here 
today is because, during the same time period, we have seen a 
resurgence of the Taliban, and many have asked about that 
today. We have also seen a great increase in the number of 
lives lost, projected increases even further in the future, 
continued increase in the amount of resources spent on this 
conflict, and no net improvement in the security situation.
    So, in my opinion, we have reached a security plateau where 
no matter how many troops we commit, how many dollars we spend, 
or how many AID workers we send, or elections that we have or 
re-have in Afghanistan, we cannot significantly improve the 
security situation. With all due respect, it seems to me 
sometimes like we are trying to kill bees with a bigger 
baseball bat. And as it gets bigger, it doesn't seem to work; 
it is only a bigger bat.
    So when I hear more proposals about adding troops in 
Afghanistan, my immediate question is, what historic successes 
do we have? I know you have answered many questions today about 
the strategy, but I have to emphasize that I don't see over 
history how this will work, how it will continue to work. I 
have deep hope, since I think this may well proceed with or 
without my approval, that you are able to succeed. But if you 
are not, in 12 months, will we just be back here saying, well, 
there was a little miscalculation, we should have done this, we 
could have done that? What will you do if it doesn't succeed? 
Historically how do you convince me this could work and is 
worth the cost?
    General McChrystal. Insurgencies are very difficult to deal 
with, and if you go back and study counterinsurgency, you will 
find a tremendous number of unsuccessful efforts to defeat an 
insurgency.
    The reason I believe we can defeat this insurgency and the 
reason I believe there is great reason for optimism is, one, 
the nature of the insurgency. This insurgency was a group that 
was in power, the most prominent part of the Taliban, and they 
were not credible in power. And they are not credible as a 
political entity now. So they are not the national liberation 
front of Afghanistan coming back to free the country.
    In polling data, in my own anecdotal discussions almost 
every day with Afghans both in cities and forward, they don't 
want the Taliban back. The only time they accept the Taliban is 
with reluctance as a reality, not as a desire. So what they 
would like is help.
    I think the other thing about counterinsurgency is, as we 
study it and we have learned more about it, when you lag in 
insurgency, when an insurgency grows, it is like a fire in a 
house. If the fire starts and you can put it out immediately or 
in your kitchen with a small fire extinguisher, that is what it 
takes. If you ignore or don't do that quickly enough and it is 
into several rooms, then suddenly the requirement to put the 
fire out has gotten larger. In many ways, that happens in many 
insurgencies.
    And in Afghanistan, because the insurgency grew as they 
recovered after 2001, but sort of slowly. Until 2005, it wasn't 
as evident. That grew. Their shadow governance, their presence 
among the people was not met by increases in Afghanistan 
national security, force strength levels, or in coalition 
forces. So what I am saying is we lagged behind that. We have a 
saying as we have studied this that counterinsurgency is not a 
game in which you can play catchup ball. I think we can get 
ahead of this this time, Ma'am.
    Ms. Pingree. Thank you.
    The Chairman. I thank the gentlelady.
    Mr. Kline.
    Mr. Kline. I thank Mr. Chairman.
    Thank you, gentlemen, for being here.
    General McChrystal, I just want to be perfectly clear and 
get this on the record. I believe you responded to the ranking 
member, Mr. McKeon, or one of my colleagues, when asked about 
the July 2011 date if that was a date that you had proposed or 
recommended?
    General McChrystal. I did not recommend that date, but I 
did identify to my leadership that I felt that 18--in about 18 
months, about the summer of 2011, that we thought we could make 
significant progress against this insurgency.
    Mr. Kline. I understand. Excuse me, but you didn't 
recommend that such a date be put out there and announced? I 
just want to be clear about that.
    General McChrystal. No, Congressman, I did not.
    Mr. Kline. Okay and thank you.
    And I noticed that in discussing this date that you felt 
that there were those who opposed us, the enemy, presumably 
would seize upon this for information warfare, and, quote, ``we 
can deal with it.''
    Let me just say, I hope and pray that we can deal with it 
because I think it is a problem for you. And I do think it has 
put ambiguity out there which we have heard from both sides of 
the aisle today. And we are hearing from our constituents and 
the American people; they don't know what that date means. And 
I have listened very carefully to you and Admiral Mullen and to 
Secretary Gates, and I understand that it is a start of a 
transition, but I think we put ourselves in a very tough 
position by having this date out there which you and others 
must constantly explain to the Afghans and our allies and to 
the American people. I hope and pray that you can indeed deal 
with it because I worry about the ambiguity.
    Moving to another subject which is I find interesting and 
somewhat amazing, and that has do with what our hope for 
outcome is. You said, General McChrystal, ``I am confident we 
have the right strategy and the right resources.'' And I was 
delighted to hear that, and I do have great confidence in you 
and have had since I guess we probably met the first time in 
some remote corner in Baghdad or somewhere where you were doing 
a fantastic job. But what is it that we have the right strategy 
and the right resources to do? Is that to win?
    General McChrystal. I believe it is to let the Afghan 
people win.
    Mr. Kline. Okay. Is there an important difference there? I 
mean, we are asking our sons and daughters, literally, in some 
cases, to go over there and fight, 30,000 more of them. Are we 
going asking them to go over and win?
    General McChrystal. We are asking them to go over there and 
be on the winning team. And the reason I parse this is because 
the Afghans are the ultimate winners here.
    Mr. Kline. I understand that. I think the parsing is 
interesting because it seems to be consistent. Whether it is 
Admiral Mullen, who I asked whenever we had the last hearing a 
few days ago if we were seeking victory, and he said, no, it is 
success. Well, I don't understand why we are parsing the words 
success and victory and win, but it seems to be consistently 
coming from that stable.
    Now Secretary Gates reportedly said this weekend, ``we are 
in this thing to win'' when talking to our men and women in 
Afghanistan. And I certainly think that is right, and I hope 
that is the message that we are portraying to the men and women 
we are sending over there, that they are going over there to 
win. And I guess my question to you is, is there some guidance 
from somewhere to all of you that says we can't use the words 
win or victory?
    General McChrystal. Not--not that I have received.
    Mr. Kline. Outstanding, I am very pleased to hear that 
because I am just amazed that we got into this parsing 
business. I would have been perfectly happy to access as 
synonyms success and victory and win until I started 
discussions with people who preceded you in the panel and you, 
and those words, win and victory, just don't come out. You used 
it in saying at least we are helping the Afghans win. But I 
really hope there is no direction or command or guidance that 
says we can't use those words, because I think it is important 
for our men and women in that uniform to know that they are 
going to win.
    Finally, because my time is running out, very, very 
rapidly, I want to pick up on the point that Mr. Andrews and 
some others made, and that is about Pakistan and the importance 
of Pakistan and the importance of our winning, succeeding, 
having victory in Afghanistan, of not letting the Taliban take 
control in Afghanistan, the importance of that to Pakistan. Is 
it your judgment that, should we fail in Afghanistan, should 
the Taliban reemerge, that Pakistan and its nuclear weapons and 
its democracy would be in grave danger?
    General McChrystal. I believe it would be a significant 
threat to Pakistan were the Taliban to succeed in Afghanistan.
    Mr. Kline. Thank you very much.
    My time has expired. I yield back.
    The Chairman. I thank the gentleman.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And I thank the gentlemen for being here today.
    General McChrystal, I want to go back, you had said the 
three biggest challenges you felt we had was the growing of the 
Afghan army, the governance, and then the Afghan people 
themselves. I would like to get both of your comments on this, 
and I asked the same question about Afghanistan back in early 
November. The sense of Afghan nationalism versus all the other 
influences of tribal history, sectionalism, religion, is there 
a strong enough sense of nationalism that the Afghans will come 
together as a nation and pull this thing off with us providing 
the security?
    Ambassador Eikenberry. I do believe that is the case. When 
I first went to Afghanistan in 2002, Congressman, I knew very 
little about the country. One of the big surprises that I got 
back in 2002 was to get a better sense of Afghan nationalism. 
Of course, they have tribal identities. Of course, they have 
community identities, but to the extent I find extraordinary, 
Afghans, when asked who are you, they are an Afghan, and they 
are very proud of their Afghan identity. There is much to build 
upon there.
    General McChrystal. That is absolutely the case, and we 
deal with Afghans. And you say, well, what are you? And they 
say, ``I am an Afghan.'' So much of the ethnic divides that we 
hear so much about now really came at the end of the fight 
against the Soviets with the rise of warlords in the civil war, 
and most Afghans want to repair that and get it behind them.
    Mr. Kissell. Second question in this same line of thinking 
in the governance, one of the things that was mentioned a lot 
when we were visiting last time was a new developing 
classification, new people, and the ministers. And what we have 
concerns about President Karzai, that there was a lot of 
optimism about the ministers, and Mr. Ambassador if you could 
address that very briefly for me, please.
    Ambassador Eikenberry. As I had said earlier, Congressman, 
there really is a very impressive group of ministers right now 
in the Afghan cabinet, and indeed they are President Karzai's 
ministers. President Karzai does get the credit for the naming 
of those ministers; finance, commerce, health, I could go on. 
And he has also committed very publicly in his inauguration 
speech to improve upon the quality of those important 
ministries. We are waiting for his announcements to be made, 
and we expect the first round will be within the next several 
days. We have a degree of confidence there will be improvements 
in the central government.
    Mr. Kissell. Thank you, sir.
    And, General, in building the Afghan security forces, this 
is getting into a detailed level, but I think it is important; 
one of the areas we hear of the difficulties is that only like 
ten percent I believe of the Afghan military force is literate. 
And so to have them learning skills, reading maps, just doing 
the basic day to day, how are you coping with that in terms of 
building this force?
    General McChrystal. That is an important point. One is 
literacy training. Not only is that important to help make the 
force better, but it is also very popular, and it helps get 
people in the service, and it helps keep them in the service. 
And it makes them a stronger service, so we are running 
literacy programs.
    The other thing about it, though, when people say 
illiterate people can't fight, I remind people that the Taliban 
is illiterate. And so we can use literacy and we will improve 
people, but it is not automatically a defining ability to be a 
good soldier.
    Mr. Kissell. I thank you all for being here. And I would 
like to finish with a comment. I have spent some times with 
General Fields, the Special Inspector General for Afghanistan 
Reconstruction (SIGAR), and I think that is so important that 
we do monitor our commitments in the civilian areas, what we 
build, what we do to make sure that we are giving the people 
what they need, what they want and are getting the input from 
the Afghan leaders. It is just so important. Thank you so much.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Conaway.
    Mr. Conaway. Good morning, afternoon now I guess.
    Thank you, Mr. Chairman.
    General, the numbers of Afghan security forces both police 
and military between 300,000 and 400,000 has been thrown 
around, the 300,000 being key to next summer. Do we have the 
billets in place to be able to training 300,000 or the 
differential between where we are right now, assuming some part 
of them are properly trained, to get to that number? And on a 
long-term basis, President Karzai said today it will be 15 
years before he can afford to maintain that force on his own.
    So, Ambassador, if you could talk to us a little bit about 
how we will pay for the force of 300,000 to 400,000, and who 
will pay for it? And can we get there by next summer?
    General McChrystal. Sir, we are between 180,000 and 190,000 
assigned between the Afghan army and police right now. And we 
will continue to grow up on an azimuth that they can meet, how 
fast can they recruit, and how fast can we train. We are going 
to take a significant force out of what the President just 
approved and put that into what we call initial entry training 
or the training base. That will help our capacity to grow 
immediately. Along with our coalition partners, they also put 
people into that command, which is NATO training mission in 
Afghanistan.
    And then, over the long haul, the rest of the development 
of the force, in fact most of the development occurs when they 
are in units, and that is by partnering with our force, which 
is against a central tenet of the strategy as we go forward.
    Mr. Conaway. So we can talk about 300,000 next summer in 
place?
    General McChrystal. We won't be there by next summer. We 
will be, by next fall of 2010, we expect to be about 134,000 in 
the police--I am sorry, in the army and a little over 100,000 
in the police. It would take another year, summer of 2011, 
before we would talk about a combined 300,000.
    Mr. Conaway. Ambassador, how does the Afghan government pay 
for this increased force?
    Ambassador Eikenberry. Three points, if I could, I saw 
President Karzai's comment this morning as a result of his 
meetings he had with Secretary Gates. The first point is, 
clearly, the United States of America and, very important, our 
allies, we are going to need to have a long-term security 
assistance relationship with Afghanistan. We are going to need 
to provide support, training support, budgetary support we know 
in the years ahead. We don't know exactly at this point in time 
what that level would be.
    The second would be very importantly, in our programs in 
Afghanistan, we are working hard right now to help 
Afghanistan's economy move forward so they can have more 
autonomy. Our agricultural program, we are helping them develop 
revenue collection systems. So we are cognizant of needing to 
have the Afghan economy and government move in directions they 
are going to be able to pay for more.
    Third point and very important point here is I don't know 
exactly what the ratio of cost is for an Afghan soldier to an 
American Marine or Army soldier deployed in Afghanistan, maybe 
1 to 25, maybe 1 to 50. It is at a ratio right now where, 
obviously, it just makes good sense if you are only looking at 
the finances of this to invest more in the Afghan National Army 
and have the Afghan police and army defending their own 
country.
    Mr. Conaway. Ambassador, of the 970 plus, almost 1,000, how 
many of those sleep at night in Kabul versus sleep in the 
countryside.
    Ambassador Eikenberry. Right now, Congressman, I think we 
have got--let me get back it the exact figures--I think we have 
got about 350 right now out in the field.
    Mr. Conaway. That is a lot more than I thought it would be.
    Ambassador Eikenberry. It has been a very impressive gain.
    Mr. Conaway. General, one final, and you have been beat to 
death about the head and shoulders about these numbers, but let 
me ask it one other different way. You have got to get 30,000. 
Your focus is on population centers. If you had 40,000, what is 
that differential in terms of population centers that won't get 
the attention they would have gotten with 40--are those 
communities going to be left to the Taliban until we can get to 
them later? What is the cut on that?
    General McChrystal. Congressman, the key thing is I am 
going to get at least 37,000 with coalition forces. And what I 
recommended did not say U.S.; it said forces. So I am really 
just about what I----
    Mr. Conaway. Are you confident those additional 7,000 will 
come with the minimum amount of caveats that allow you to put 
them where they need to go?
    General McChrystal. I think we will be in good shape, yes, 
sir.
    Mr. Conaway. So the impact on population centers that would 
have gotten troops had you gone to 40 will be in a very few 
communities, or how do we understand that matrix?
    General McChrystal. I think it would be very small because 
as we laid out this, we focused on the south and east, but we 
also are going to put small parts of the forces elsewhere. So I 
think between the 37,000 and the fact that they are flowing 
very quickly that we are going to be able to cover the areas 
that we need to.
    Mr. Conaway. General, thank you very much, I trust you.
    The Chairman. Thank you very much.
    We have four votes have been called, and the gentlemen, our 
witnesses, have to leave at 12:30.
    We have enough time for Mr. Nye and for Mr. Hunter to ask 
one quick question.
    Mr. Nye, you are on for five minutes, quickly.
    Mr. Nye. I will try to be quick.
    Thank you both for being here today and thank you for your 
service to our country.
    Before swearing into Congress this year, I spent some time 
on the ground as a civilian in both Afghanistan and Iraq. I am 
left with two clear impressions during this process from my 
experience in the field, and that is, one, I am absolutely 
confident in the capabilities of both our military forces and 
our civilian forces to successfully run a counterinsurgency 
program in Afghanistan.
    But my other impression is I am left with a very serious 
concern about the fact that our success here is largely 
dependent on what happens on the other side of the border in 
Pakistan where our civilian and, to a larger extent, our 
military forces are not really present. Recognizing that you 
are not responsible, either of you, specifically for issues 
that concern areas outside of Afghanistan, General, I wonder if 
you could just comment please on the additional forces sent, 
what kind of capability did they give us to control the ability 
of all our enemies to cross that border and harm our mission in 
Afghanistan?
    General McChrystal. We will put some of the force along the 
border, some partnering with the Afghan border police and some 
operating in regular military locations, but the bulk of our 
forces will be protecting the population. What it will really 
do is, if elements come from across the border, what they won't 
be able to do is get at their objective, which is the people in 
the key population centers. So I think it is a denial that 
really upsets their entire ability to operate their strategy, 
which is to undercut population security.
    Mr. Nye. Thank you, I appreciate that.
    I am also concerned with their ability to get at our forces 
who are there protecting the Afghan population. Are you 
confident that we will be more successful with that mission 
given the additional forces?
    General McChrystal. I am.
    Mr. Nye. Thank you very much.
    Ambassador, you have mentioned today the importance of not 
just focusing on the national level Afghan government but 
focusing down at the local level, can you give us an idea of 
your confidence, the ability of the Afghans to work together to 
develop those capabilities so that we will be able to hand off?
    Ambassador Eikenberry. Congressman, we are innovating right 
now, and we are working closely with our military partners to 
try to figure out the right combination of local governance 
reinforced by the central government of Afghanistan. What is 
the right mix of basic services that need to get delivered? 
What are the right kind of combinations of justice programs?
    What I would tell you that, in some areas, I have had 
confidence we are seeing the outlines of what success could 
look like, but against that, if you were to ask me, what is our 
number one challenge on the civilian side right now, it is at 
the local level, trying to figure out as we go through the 
mantra now, the approach of clear, hold, build, but ultimately 
to transfer, this is probably our biggest challenge right now 
as we go into rural areas of Afghanistan or population centers 
in the south, in the eastern Afghanistan, our military forces 
move in, how do we get to that point that we can actually 
transfer governance responsibility to deliver services to the 
Afghan people? This is one of our greatest challenges.
    Mr. Nye. Thank you very much. I appreciate that.
    Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman, for the opportunity to 
squeeze in a question here.
    I thank you gentlemen for being here. We all talk about 
critical enablers and how short we are on those enablers. We 
mention it over and over again we are short on rotary wing 
aircraft right now, short on counter IED stuff right now, short 
on trainers, short on intelligence, surveillance, and 
reconnaissance (ISR), short on civilians, short on 
infrastructure like hangars, things like that. So you add 
30,000 troops; then what? How do you identify who is going to 
be the enabler and who is not going to be in this July 2011 
timeline compared to your troop cap of 30,000 or 33,000 or 
40,000 or whatever it is going to be? That will be a hard and 
fast troop cap. You will have to say, General Grunt, you go 
home because I want a new imagery analyst out here. You will be 
under a hard and fast cap. So how are you going to make that 
distinction? And what is going to make you decide when it comes 
to enablers or actual combat troops?
    General McChrystal. Actually, it is a great position to be 
in the standpoint of I get to shape the force, what we need 
more of and what we don't need. Of the 30,000 right now, my 
anticipation is a tremendous percentage of that would be 
enablers, rotary wing, intelligence, combat engineers, and 
whatnot. It is my intent to move significant combat forces, 
which will provide security.
    But because everything is a team at this point, the 
distinction starts to blur between whether rotary wing aviation 
is an enabler or whether it is actually a combat force. So I am 
very comfortable that within that force, I will be able to 
shape it. And what I would expect to do is, over time, to 
continue to shape it. I expect, and General Petraeus and I talk 
a lot about this, over time to be shaping our brigades into 
advise-and-assist brigades (AABs), which are a slightly 
different structure, and it is what we have gone to in Iraq. It 
allows you to have a more robust ability to partner with host 
nation forces than you do in just a straight normal structure.
    Mr. Hunter. In the interest of time here, we don't have the 
assets now for counter IED; 80 percent of your casualties are 
IED casualties. You don't have the enablers now. So you flood 
in 30,000 people, young Americans; we can't do it now. Why are 
you optimistic that you will have the enablers to do it when 
you start flooding theater with more people?
    General McChrystal. The counter to IEDs is security. There 
is no ISR. There is no engineer asset. There is no technical 
jammer that defeats IEDs completely. So what you have to do is 
secure an area. That is when IEDs go away, and when you start 
to get security and the locals start turning in IED locations 
or preventing them, that is what it does. You do all those 
things at the same time. And I was visiting engineers who were 
grievously wounded in Afghanistan yesterday at Walter Reed, and 
they make unbelievable contributions to this, but they need to 
be part of a team that produces security in an entire area. So 
that is what I think that the shaping of this force will allow 
us to do.
    Mr. Hunter. Lastly, then, when you look at this, for 
instance, a Marine Corps regimental combat team, you have to 
tell them you might have to leave some people back because you 
don't fall under this specific troop cap. Because they have an 
actual number that they have. You say, no, you only get 5,322, 
not 5,327 people. How are you going to micromanage that, and 
should you really be doing that? Why not let the Marine Corps 
bring its whole regimental combat team? You are not going to be 
able to do that now under this hard and fast troop cap?
    General McChrystal. Yeah, we always do that, though. I grew 
up as a paratrooper, and who you put on the airplane, you have 
got a certain number of seats, and you take people based upon 
what the mission is on the ground and decide it. It is the same 
thing true at large levels. The Marines, the regimental combat 
teams, and the Marine Expeditionary Brigades (MEBs) are all 
carefully crafted for the mission at hand, and they do an 
extraordinarily good job at doing that. That is why they are so 
effective on the ground. So I am pretty comfortable I am not 
going to have to micromanage. I am going to be able to work 
with all the players and say, here is the mission we are doing, 
but here are some constraints you have to live within and do 
the best you can there.
    The Chairman. I thank the gentleman very much.
    We appreciate your being with us, your testimony. The young 
men, young women in uniform today are the finest American 
troops ever, I am convinced. I am also convinced that the 
leadership that we have, provided by General McChrystal and 
Ambassador Eikenberry, are the finest that we in America can 
provide. I hope that you will stay in touch. Tell us in this 
committee what you need. Tell us what your recommendations are, 
and we wish you the very, very best, and Godspeed. Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:28 p.m., the committee was adjourned.]



=======================================================================



                            A P P E N D I X

                            December 8, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 8, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 57832.001
    
    [GRAPHIC] [TIFF OMITTED] 57832.002
    
    [GRAPHIC] [TIFF OMITTED] 57832.003
    
    [GRAPHIC] [TIFF OMITTED] 57832.004
    
    [GRAPHIC] [TIFF OMITTED] 57832.005
    
    [GRAPHIC] [TIFF OMITTED] 57832.006
    
    [GRAPHIC] [TIFF OMITTED] 57832.007
    
    [GRAPHIC] [TIFF OMITTED] 57832.008
    
    [GRAPHIC] [TIFF OMITTED] 57832.009
    
    [GRAPHIC] [TIFF OMITTED] 57832.010
    
    [GRAPHIC] [TIFF OMITTED] 57832.011
    
    [GRAPHIC] [TIFF OMITTED] 57832.012
    
    [GRAPHIC] [TIFF OMITTED] 57832.013
    
    [GRAPHIC] [TIFF OMITTED] 57832.014
    
    [GRAPHIC] [TIFF OMITTED] 57832.015
    
    [GRAPHIC] [TIFF OMITTED] 57832.016
    
    [GRAPHIC] [TIFF OMITTED] 57832.017
    
    [GRAPHIC] [TIFF OMITTED] 57832.018
    
    [GRAPHIC] [TIFF OMITTED] 57832.019
    
    [GRAPHIC] [TIFF OMITTED] 57832.020
    
    [GRAPHIC] [TIFF OMITTED] 57832.021
    
    [GRAPHIC] [TIFF OMITTED] 57832.022
    
    [GRAPHIC] [TIFF OMITTED] 57832.023
    
    [GRAPHIC] [TIFF OMITTED] 57832.024
    
    [GRAPHIC] [TIFF OMITTED] 57832.025
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 8, 2009

=======================================================================

      
                   QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. At the hearing on December 3rd before the House Armed 
Services Committee, I had the chance to speak with Secretary Gates and 
Admiral Mullen about some of my concerns regarding our efforts in 
Afghanistan. I am troubled by the possibility that our continued 
presence in Afghanistan makes us appear more and more like occupiers, 
creating further resentment among the Afghan people and thus 
strengthening support for the Taliban. Both Secretary Gates and Admiral 
Mullen assured me that this was not the case and that our image was 
driven by our actions, including our ability to reduce civilian 
casualties and partner with Afghan security forces. General, they also 
expressed that you had more direct insight into the situation on the 
ground regarding reactions to increased U.S. presence. How do the 
Afghan people view our military efforts? What can we achieve 
strategically by following a counterinsurgency approach rather than a 
more counterterrorism-focused strategy?
    General McChrystal. According to the last ABC news poll, 68% of 
Afghans support the presence of the U.S. in Afghanistan and 61% favor 
the coming increase in forces.
    By protecting the population with a counterinsurgency approach, we 
create time and space to grow the Afghan National Security Forces and 
allow the Afghan government to mature. With a counterterrorism-focused 
strategy, I believe we would not gain the trust of the Afghan people, 
and not have the military intelligence or the information to combat Al 
Qaeda.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS
    Mrs. McMorris Rodgers. The plan proposed by the Administration 
pressures the Afghanistan government to improve governance so that 
President Karzai can take control as soon as 2011. What steps does the 
Administration expect the Afghan government to take in improving 
governance, delivering services to its people, and growing their 
security forces within an 18-month timeframe?
    General McChrystal. Afghanistan governance is already under the 
control of the Afghan Government, headed by President Hamid Karzai. It 
is not under U.S., coalition or international community control or 
lead. While Afghans are in the lead, improvements in Afghan governance 
are necessary. Areas for progress include anti-corruption efforts, 
provision of basic services to the population, flow of funding/
resources from Kabul ministries to the sub-national level, and 
improvement in access to justice at the local level. The Government of 
Afghanistan, U.S. Embassy, ISAF, and other key partners have developed 
a District Delivery Program designed to ensure key Afghan ministries 
provide critical leadership and services to Afghans at the local level 
once security has been established in critical districts.
    Mrs. McMorris Rodgers. General McChrystal, you have sought to 
double the size of the army and police to a force of about 400,000. 
Yet, the President seemed to stray away from this in his speech last 
week. How can we expect to see success if we are not putting 
appropriate emphasis on training in Afghanistan?
    General McChrystal. We have made Afghan Nation Security Forces 
(ANSF) growth and development our #1 priority. We will continue to 
assist in the growth and development of the ANSF. The process of 
training the ANSF is a long-term commitment by U.S. forces that 
includes three main efforts.
    The first is institutional, where soldiers and police receive basic 
training through schools and other formalized programs. American forces 
provide instructors and advisors to the Afghan National Army (ANA) and 
Afghan National Police (ANP) training institutions, with the intention 
that Afghans take on increasing responsibility for their own training.
    The second training effort for U.S. forces are Embedded Training 
Teams (ETTs) and Police Mentor Teams (PMTs), which are provided to 
fielded ANA units from the battalion to Corps level and to ANP units 
from the district to police region level. There are currently two U.S. 
BCTs providing ETTs and PMTs: the 48th IBCT and 4/82 IBCT. ETTS and 
PMTs will remain with an ANSF unit until that particular unit has 
achieved the capability to operate independently.
    The third training effort is U.S. partnership with ANSF units. This 
partnering is a key tenet of our strategy, and is designed to help the 
ANSF build capacity and assume lead security responsibility as quickly 
and as successfully as possible. Once units graduate from their 
respective institutional training programs, they continue to develop 
through their partnership with U.S. and coalition forces.
    Mrs. McMorris Rodgers. The mission in Afghanistan must be 
successful. By sending Marine Combat Brigades and then support by NATO, 
I am optimistic that we could have a winning combat operation. We must 
then follow that up by training the Afghan people to have their own 
Army, Paramilitary, and local police. What isn't clear to me is how 
will the Administration define success in Afghanistan?
    General McChrystal. The definition of success in Afghanistan will 
involve progress measured throughout the whole of government. The U.S. 
goals and objectives for the military in Afghanistan are to set the 
conditions for security, degrade of the Taliban to a level within 
GIRoA's capacity, and to deny Al Qaeda a sanctuary within the borders.
    Mrs. McMorris Rodgers. There is no doubt that economic development 
plays a critical role in determining the outcome of the civilian 
transition, part two of the war strategy announced by the President 
last week, and ultimately the long-term security and stability of 
Afghanistan.
    I would like to focus my question today on women and their role in 
the President's civilian transition strategy. As you probably know 
almost half the Afghan population is comprised of women. But, yet less 
than 39 percent are economically active and, more disturbing, less than 
15 percent of women are even literate. I believe that changing the 
perception and treatment of women in Afghan society is critical to the 
stability and security of the nation. What I would like to know is 
whether the civilian strategy contemplates a plan for supporting women 
and young girls both in terms of education and their integration into 
the marketplace?
    Ambassador Eikenberry. [The information referred to was not 
available at the time of printing.]
    Mrs. McMorris Rodgers. Civilian partnerships, in combination with 
military efforts, are crucial to success in Afghanistan. We know that 
those who fight with the insurgency do not do so out of conviction, but 
rather due to money and coercion. I hear there are plans to have about 
1,000 civilian experts and advisors helping provide developmental 
assistance to include bolstering Afghanistan's agricultural sector. 
What exactly will our civilian force be doing in Afghanistan? And who 
will make up this civilian corps? What is the timeframe for their 
arrival?
    Ambassador Eikenberry. [The information referred to was not 
available at the time of printing.]
    Mrs. McMorris Rodgers. Secretary Clinton has said that the United 
States will not face these challenges, military or civilian, alone. 
What should we expect from our NATO Allies in terms of civilian 
partnerships?
    Ambassador Eikenberry. [The information referred to was not 
available at the time of printing.]
    Mrs. McMorris Rodgers. In March, President Obama said, "For the 
Afghan people, a return to Taliban rule would condemn their country to 
brutal governance, international isolation, a paralyzed economy, and 
the denial of basic human rights to the Afghan people--especially women 
and girls." When we went into Afghanistan, there were virtually no 
girls attending school; today girls comprise over 40% of the student 
population. What is the Administration doing to continue to ensure we 
are educating the people of Afghanistan about human rights and ensuring 
young women are getting an education?
    Ambassador Eikenberry. [The information referred to was not 
available at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. General McChrystal, what equipment will you need to 
accompany the additional 30,000 troops? As IEDs are now the leading 
cause of casualties in Afghanistan, will there be a need for additional 
MRAPs and helicopters?
    General McChrystal. Currently the U.S. government has the authority 
to purchase up to 10,000 MRAP-All Terrain Vehicles (M-ATVs), but has 
only contracted 6,644 vehicles. It is imperative that the remaining 
3,356 be placed on contract in order to bring that crucial capability 
to more soldiers.
    U.S. forces in Afghanistan require more heavy lift helicopter 
assets and C-130-sized cargo aircraft to allow freedom of movement, as 
well as to assist in distributing supplies to units in areas that are 
inaccessible by traditional supply vehicles.
    Mr. Heinrich. General McChrystal, Admiral Mullen has said that 
Afghanistan and Pakistan are ``inextricably linked in a common 
insurgency.'' How closely do you work with your Pakistani counterparts 
and what specifically will the new plan add to bolster military 
operations along the border?
    General McChrystal. We cooperate extensively with Pakistan on 
border issues through a multitude of formally established means. These 
mechanisms range from the Tri-Partite Commission (TPC) meetings between 
myself and my ANA and PAKMIL counterparts, down to meetings with 
Battalion Commanders from units employed across the border from each 
other. These numerous linkages help us share intelligence and de-
conflict operations on the border and have been steadily improving. 
However, these mechanisms are limited in that they are mandated by NATO 
to only coordinate border issues.
    Pakistan and ISAF have recently initiated a series of Combined 
Campaign Planning Conferences with the goal of coordinating 
complementary operations on each side of the border. This series of 
conferences is under the leadership of LTG Rodriguez and the IJC, and 
took place on 8 January 2010.
    Mr. Heinrich. Ambassador Eikenberry, how active are we in the role 
of promoting education and school development in Afghanistan?
    Ambassador Eikenberry. [The information referred to was not 
available at the time of printing.]
    Mr. Heinrich. Ambassador Eikenberry, in terms of developmental and 
civilian assistance, what has changed from the President's strategy 
announced in March 2009, and are we getting sufficient civilian experts 
with the skills we need? How will we encourage alternative agricultural 
products other than opium poppy?
    Ambassador Eikenberry. [The information referred to was not 
available at the time of printing.]

                                  <all>

</pre></body></html>
